1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1419
ILLUMINA, INC., SEQUENOM, INC.,
Plaintiffs-Appellants,
v.
ARIOSA DIAGNOSTICS, INC.,
ROCHE SEQUENCING SOLUTIONS, INC.,
ROCHE MOLECULAR SYSTEMS, INC.,
Defendants-Appellees.
OPINION ISSUED: March 17, 2020
OPINION MODIFIED: August 3, 2020*
Appeal from the United States District Court
for the Northern District of California in
No. 3:18-cv-02847-SI, Senior Judge Susan Y. Illston.
*

*

*

Before LOURIE, MOORE, and REYNA,
Circuit Judges.
Opinion for the court filed by
Circuit Judge LOURIE.
Dissenting opinion filed by Circuit Judge REYNA.
*

This opinion has been modified and reissued following a petition for rehearing filed by Defendants-Appellees.

2a
LOURIE, Circuit Judge.
Illumina, Inc. and Sequenom, Inc. (collectively, “Illumina”) appeal from a decision of the United States
District Court for the Northern District of California
that claims 12, 4-5, and 9-10 of U.S. Patent 9,580,751
(the “’751 patent”) and claims 1-2 and 10-14 of U.S. Patent 9,738,931 (the “’931 patent”) are invalid under 35
U.S.C. § 101 as directed to an ineligible natural phenomenon. Illumina, Inc. v. Ariosa Diagnostics, Inc.,
356 F. Supp. 3d 925 (N.D. Cal. 2018) (“Decision”). Because we conclude that the claims are directed to patent-eligible subject matter, we reverse.
BACKGROUND
“In 1996, Drs. Dennis Lo and James Wainscoat discovered cell-free fetal DNA in maternal plasma and serum, the portion of maternal blood samples that other
researchers had previously discarded as medical
waste.” Ariosa Diagnostics, Inc. v. Sequenom, Inc.,
788 F.3d 1371, 1373 (Fed. Cir. 2015). They applied for a
patent, and, in 2001, they obtained U.S. Patent
6,258,540, which claimed a method for detecting the
small fraction of paternally inherited cell-free fetal
DNA in the plasma and serum of a pregnant woman.
Id. In 2015, we held that the claims of that patent were
invalid under 35 U.S.C. § 101 because they were directed to “matter that is naturally occurring”—i.e., the
natural phenomenon that cell-free fetal DNA exists in
maternal blood. Id. at 1376.
The present case involves two patents that are unrelated to the patent held invalid in Ariosa, but rather
claim priority from a European patent application filed
in 2003. The ’751 and ’931 patents at issue in this case,
which are related to each other and have largely identical specifications, begin by acknowledging the natural

3a
phenomenon that was at issue in Ariosa: “[I]t has been
shown that in the case of a pregnant woman extracellular fetal DNA is present in the maternal circulation and
can be detected in maternal plasma … .” ’751 patent
col. 1 ll. 23-25. The patents then identify a problem that
was the subject of further research on cell-free fetal
DNA in maternal blood:
[T]he major proportion (generally >90%) of the
extracellular DNA in the maternal circulation
is derived from the mother. This vast bulk of
maternal circulatory extracellular DNA renders it difficult, if not impossible, to determine
fetal genetic alternations [sic] … from the small
amount of circulatory extracellular fetal DNA.
Id. col. 1 ll. 42-50. In simple terms, the problem that
the inventors encountered was that, although it was
known that cell-free fetal DNA existed in the mother’s
bloodstream, there was no known way to distinguish
and separate the tiny amount of fetal DNA from the
vast amount of maternal DNA.
The inventors of the ’751 and ’931 patents attempted to find a solution to that problem. First, they made
a discovery:
An examination of circulatory extracellular fetal DNA and circulatory extracellular maternal
DNA in maternal plasma has now shown that,
surprisingly, the majority of the circulatory extracellular fetal DNA has a relatively small size
of approximately 500 base pairs or less, whereas the majority of circulatory extracellular maternal DNA in maternal plasma has a size
greater than approximately 500 base pairs.

4a
Id. col. 1 ll. 54-61. To arrive at that discovery, the inventors examined five pregnancies and found that cellfree fetal DNA fragments “were almost completely of
sizes smaller than 500 base pairs.” ’751 patent col. 4 ll.
50-53. Moreover, the inventors found that 70% of all
DNA fragments smaller than 300 base pairs were fetal.
Id.
Having made that discovery regarding the relative
size distributions of cell-free fetal and maternal DNA
fragments in a pregnant mother’s bloodstream, the inventors used their discovery to develop a solution to
the identified problem of distinguishing the fetal DNA
from the maternal DNA:
This surprising finding forms the basis of the
present invention according to which separation of circulatory extracellular DNA fragments which are smaller than approximately
500 base pairs provides a possibility to enrich
for fetal DNA sequences from the vast bulk of
circulatory extracellular maternal DNA.
Id. col. 2 ll. 1-6.
The claims of the ’751 and ’931 patents are directed
to that solution. Specifically, they claim methods of
preparing a fraction of cell-free DNA that is enriched in
fetal DNA. The methods of preparation include size
discrimination of the DNA based on size parameters
that the inventors selected to balance the need to remove enough longer maternal DNA fragments to enrich the sample but also leave behind enough shorter
fetal DNA fragments to allow for testing. As explained
in the patent, “depending on the downstream application” of the enriched mixture, the size parameter is not
fixed at either 500 or 300 base pairs but can be even
smaller. See ’751 patent col. 4 ll. 57-59.

5a
Claim 1 of the ’751 patent, the only independent
claim, includes an inventor-chosen size parameter of
500 base pairs to allow for selective removal of longer
DNA fragments from the mixture:
1. A method for preparing a deoxyribonucleic acid (DNA) fraction from a pregnant human female useful for analyzing a genetic locus
involved in a fetal chromosomal aberration,
comprising:
(a) extracting DNA from a substantially
cell-free sample of blood plasma or blood serum
of a pregnant human female to obtain extracellular circulatory fetal and maternal DNA fragments;
(b) producing a fraction of the DNA extracted in (a) by:
(i) size discrimination of extracellular
circulatory DNA fragments, and
(ii) selectively removing the DNA
fragments greater than approximately 500 base
pairs,
wherein the DNA fraction after (b) comprises a plurality of genetic loci of the extracellular circulatory fetal and maternal DNA; and
(c) analyzing a genetic locus in the fraction
of DNA produced in (b).
’751 patent col. 7 l. 54-col. 8 l. 57. In contrast, claim 1 of
the ’931 patent imposes a different size parameter,
namely, 300 base pairs:

6a
1. A method, comprising:
(a) extracting DNA comprising maternal
and fetal DNA fragments from a substantially
cell-free sample of blood plasma or blood serum
of a pregnant human female;
(b) producing a fraction of the DNA extracted in (a) by:
(i) size discrimination of extracellular
circulatory fetal and maternal DNA fragments,
and
(ii) selectively removing the DNA
fragments greater than approximately 300 base
pairs,
wherein the DNA fraction after (b) comprises extracellular circulatory fetal and maternal DNA fragments of approximately 300
base pairs and less and a plurality of genetic loci of the extracellular circulatory fetal and maternal DNA fragments; and
(c) analyzing DNA fragments in the fraction of DNA produced in (b).
’931 patent col. 7 l. 58-col. 8 l. 63.
Dependent claims in each patent place further limitations on the size discrimination and selective removal
processes recited in step (b) of the method claims. For
example, dependent claim 7 of the ’751 patent recites
that “the size discrimination in (b) comprises centrifugation,” and claim 8 further limits it to “density gradient centrifugation.” ’751 patent col. 9 ll. 1-4. Likewise,
dependent claims 4-10 of the ’931 patent recite that step
(b) can comprise “chromatography,” “electrophoresis,”

7a
“centrifugation,” and/or “nanotechnological means.”
’931 patent col. 9 ll. 1-14.
Illumina filed suit against Ariosa Diagnostics, Inc.,
Roche Sequencing Solutions, Inc., and Roche Molecular
Systems, Inc. (collectively, “Roche”) alleging infringement of the ’751 and ’931 patents. Roche moved for
summary judgment that the asserted claims are invalid
under 35 U.S.C. § 101. The district court granted
Roche’s motion for summary judgment, holding that
the claims of the ’751 and ’931 patents are directed to
ineligible subject matter. Decision, 356 F. Supp. 3d at
935. The court entered judgment in favor of Roche, and
Illumina appealed. We have jurisdiction under 28
U.S.C. § 1295(a)(1).
DISCUSSION
We review a grant of summary judgment according
to the law of the regional circuit. Kaneka Corp. v.
Xiamen Kingdomway Grp. Co., 790 F.3d 1298, 1303
(Fed. Cir. 2015) (citing Halo Elecs., Inc. v. Pulse Elecs.,
Inc., 769 F.3d 1371, 1377 (Fed. Cir. 2014)). In the Ninth
Circuit, a grant of summary judgment is reviewed de
novo. Leever v. Carson City, 360 F.3d 1014, 1017 (9th
Cir. 2004) (citing Hargis v. Foster, 312 F.3d 404, 409
(9th Cir. 2002)). Summary judgment is appropriate
when “there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56.
I
Section 101 provides that “Whoever invents or discovers any new and useful process, machine, manufacture, or composition of matter, or any new and useful
improvement thereof, may obtain a patent therefor … .” 35 U.S.C. § 101. Given the expansive terms of

8a
§ 101, “Congress plainly contemplated that the patent
laws would be given wide scope”; the legislative history
likewise indicated that “Congress intended statutory
subject matter to ‘include anything under the sun that
is made by man.’” Diamond v. Chakrabarty, 447 U.S.
303, 308-09 (1980) (internal citation omitted).
The Supreme Court has held that § 101 “contains
an important implicit exception. ‘[L]aws of nature,
natural phenomena, and abstract ideas’ are not patentable.” Mayo Collaborative Servs. v. Prometheus Labs.,
Inc., 566 U.S. 66, 70 (2012) (alteration in original) (quoting Diamond v. Diehr, 450 U.S. 175, 185 (1981)). These
exceptions exist because monopolizing the basic tools of
scientific work “might tend to impede innovation more
than it would tend to promote it.” Id. at 71. However,
the Supreme Court has advised that these exceptions
must be applied cautiously, as “too broad an interpretation of this exclusionary principle could eviscerate patent law.” Id.
Laws of nature and natural phenomena are not patentable, but applications and uses of such laws and
phenomena may be patentable. A claim to otherwise
statutory subject matter does not become ineligible by
its use of a law of nature or natural phenomenon. See
Diehr, 450 U.S. at 187; Parker v. Flook, 437 U.S. 584,
590 (1978). On the other hand, adding “conventional
steps, specified at a high level of generality,” to a law of
nature or natural phenomenon does not make a claim to
the law or phenomenon patentable. Mayo, 566 U.S. at
82.
To distinguish claims to patent-eligible applications
of laws of nature and natural phenomena from claims
that impermissibly tie up such laws and phenomena, we
apply the two-part test set forth by the Supreme

9a
Court. First, we examine whether the claims are “directed to” a law of nature or natural phenomenon. Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 573 U.S. 208, 217
(2014). If—and only if—they are, then we proceed to
the second inquiry, where we examine whether the limitations of the claim apart from the law of nature or
natural phenomenon, considered individually and as an
ordered combination, “‘transform the nature of the
claim’ into a patent-eligible application.” Id. (quoting
Mayo, 566 U.S. at 78).
II
This is not a diagnostic case. And it is not a method
of treatment case. It is a method of preparation case.
Under Mayo, we have consistently held diagnostic
claims unpatentable as directed to ineligible subject
matter. See Athena Diagnostics, Inc. v. Mayo Collaborative Servs., LLC, 927 F.3d 1333, 1352 (Fed. Cir. 2019)
(Moore, J., dissenting from denial of rehearing en banc)
(“Since Mayo, we have held every single diagnostic
claim in every case before us ineligible.”); see also, e.g.,
Athena Diagnostics, Inc. v. Mayo Collaborative Servs.,
LLC, 915 F.3d 743 (Fed. Cir. 2019); Cleveland Clinic
Found. v. True Health Diagnostics LLC, 859 F.3d 1352
(Fed. Cir. 2017); Cleveland Clinic Found. v. True
Health Diagnostics LLC, 760 F. App’x 1013 (Fed. Cir.
2019). In contrast, we have held that method of treatment claims are patent-eligible. See Endo Pharm. Inc.
v. Teva Pharm. USA, Inc., 919 F.3d 1347 (Fed. Cir.
2019); Natural Alternatives Int’l, Inc. v. Creative
Compounds, LLC, 918 F.3d 1338 (Fed. Cir. 2019); Vanda Pharm. Inc. v. West-Ward Pharm. Int’l Ltd., 887
F.3d. 1117 (Fed. Cir. 2018). The claims in this case do
not fall into either bucket, and we consider the claims
under the Alice/Mayo test.

10a
Here, it is undisputed that the inventors of the ’751
and ’931 patents discovered a natural phenomenon. But
at step one of the Alice/Mayo test, “it is not enough to
merely identify a patent-ineligible concept underlying
the claim; we must determine whether that patentineligible concept is what the claim is ‘directed to.’”
Rapid Litig. Mgmt. Ltd. v. CellzDirect, Inc., 827 F.3d
1042, 1050 (Fed. Cir. 2016). The focus of the dispute in
this case is whether the claims of the ’751 and ’931 patents are “directed to” the natural phenomenon, i.e.,
whether they claim the discovered natural phenomenon
itself versus eligible subject matter that exploits the
discovery of the natural phenomenon.
As an initial matter, there are differences between
the district court and the parties about how to articulate the natural phenomenon that the inventors discovered. The district court appeared to find that the relevant natural phenomenon is either the “testable quantity” of fetal DNA or “test results” obtained from that
fetal DNA. Decision, 356 F. Supp. 3d at 933. Roche’s
articulation of the natural phenomenon was a moving
target throughout its briefing and at oral argument, but
appears to be the “size distribution” of fetal to maternal
cell-free DNA in a mother’s blood reflected in Table 1
of the specification, with a particular focus on the number “500 base pairs” as the critical dividing line between the two. See Appellee’s Br. 14, 18, 21; Oral Arg.
27:58, 28:35, 29:16. And Illumina asserts more simply
that the inventors’ discovery was that “fetal cell-free
DNA tends to be shorter than maternal cell-free
DNA.” Appellant’s Br. 24; see also id. at 8 (“[I]n a
sample of cell-free DNA from a pregnant woman, the
DNA that arises from the fetus is smaller on average
than the DNA that arises from the mother.”).

11a
We take note of Roche’s inability—despite its status as the party challenging the validity of the patents—to clearly identify the natural phenomenon that
forms the basis of its challenge. But, ultimately, we
find that the parties’ respective articulations reflect
distinctions without differences. For simplicity, we
adopt Illumina’s articulation of the natural phenomenon, i.e., that cell-free fetal DNA tends to be shorter
than cell-free maternal DNA in a mother’s bloodstream. We thus turn to the crucial question on which
this case depends: whether the claims are “directed to”
that natural phenomenon. We conclude that the claims
are not directed to that natural phenomenon but rather
to a patent-eligible method that utilizes it.
The claims in this case are directed to methods for
preparing a fraction of cell-free DNA that is enriched in
fetal DNA. The methods include specific process
steps—size discriminating and selectively removing
DNA fragments that are above a specified size threshold—to increase the relative amount of fetal DNA as
compared to maternal DNA in the sample. ’751 patent
col. 7 ll. 63-67. The size thresholds in the claims—500
base pairs in the ’751 patent and 300 base pairs in the
’931 patent—are not dictated by any natural phenomenon, particularly because the size distributions of fetal
and maternal cell-free DNA overlap each other (i.e.,
there are maternal DNA fragments shorter than 300
base pairs). The claimed size thresholds are humanengineered parameters that optimize the amount of
maternal DNA that is removed from the mixture and
the amount of fetal DNA that remains in the mixture in
order to create an improved end product that is more
useful for genetic testing than the original natural extracted blood sample.

12a
Moreover, the claimed methods achieve more than
simply observing that fetal DNA is shorter than maternal DNA or detecting the presence of that phenomenon. The claims include physical process steps that
change the composition of the mixture, resulting in a
DNA fraction that is different from the naturally occurring fraction in the mother’s blood. The dependent
claims further illustrate the concrete nature of the
claimed process steps. For ex-ample, claims 7-8 of the
’751 patent and claims 8-9 of the ’931 patent require
that the size discrimination step comprise “centrifugation,” and specifically “density gradient centrifugation.”
’751 patent col. 9 ll. 1-4; ’931 patent col. 9 ll. 9-12. Other
dependent claims in the ’931 patent comprise other discrimination and separation means, such as “high performance liquid chromatography” (claims 4-5), “capillary electrophoresis” (claims 6-7), or “nanotechnological
means” (claim 10). These dependent claims are supported by the specification’s description of the physical
means by which the size discrimination and selective
removal step of the claims can be achieved:
The size separation of the extracellular DNA in
said serum or plasma sample can be brought
about by a variety of methods, including but
not limited to: chromatography or electrophoresis such as chromatography on agarose or
polyacrylamide gels, ion-pair reversed-phase
high performance liquid chromatography [], capillary electrophoresis in a self-coating, lowviscosity polymer matrix [], selective extraction in microfabricated electrophoresis devices
[], microchip electrophoresis on reduced viscosity polymer matrices [], adsorptive membrane
chromatography [] and the like; density gradient centrifugation []; and methods utilising [sic]

13a
nanotechnological means such as microfabricated entropic trap arrays [] and the like.
’931 patent col. 2 l. 61-col. 3 l. 18 (citations omitted); see
also id. col. 4 ll. 15-22 (“3. The gel was electrophoresed
at 80 Volt for 1 hour. 4. The Gel [sic] was cut into pieces corresponding to specific DNA sizes … .”). As described by the specification, the inventors used these
concrete process steps, not merely to observe the presence of the phenomenon that fetal DNA is shorter than
maternal DNA, but rather to exploit that discovery in a
method for preparation of a mixture enriched in fetal
DNA.
Roche insists that the claims in this case are no
more eligible than the claims at issue in Ariosa. We
disagree. In Ariosa, the relevant independent claims
were directed to a method “for detecting a paternally
inherited nucleic acid” (claims 1 and 24) or a method
“for performing a prenatal diagnosis” (claim 25). See
Ariosa, 788 F.3d at 1373-74. The only operative steps
in the claims were “amplifying” (i.e., making more of)
the cell-free fetal DNA and then “detecting [it],” “subjecting [it] … to a test,” or “performing nucleic acid
analysis on [it] to detect [it].” Id. We found those
claims ineligible because, like the invalid diagnostic
claims at issue in Mayo, Athena, and Cleveland Clinic,
they were directed to detecting a natural phenomenon
after a sample has been prepared or extracted. In essence, the inventors in Ariosa discovered that cell-free
fetal DNA exists, and then obtained patent claims that
covered a method directed to starting with a sample
that contains cell-free fetal DNA and seeing that that
the cell-free fetal DNA exists.
Here, in contrast, the claims are directed to more
than just the correlation between a DNA fragment’s

14a
size and its tendency to be either fetal or maternal, a
correlation which is not even mentioned in the claims.
The claims do not cover a method for detecting whether
a cell-free DNA fragment in a previously-prepared
sample is fetal or maternal based on the natural size
distribution of cell-free DNA fragments; rather, the
claimed methods exploit that natural size distribution
during the sample preparation steps to remove some
maternal DNA from the mother’s blood. Even the “analyzing” step of the claims is not directed to analyzing
the discovered natural phenomenon, but to analyzing
something else entirely, namely, “fetal chromosomal
aberrations.” See ’751 patent col. 7 ll. 55-56, col. 8 ll. 5657, col. 9 ll. 5-8; ’931 patent col. 9 ll. 17-24. Thus, the
claims in this case are different from the claims that we
held invalid in Ariosa.
Roche also argues, based on the Supreme Court’s
decision in Association for Molecular Pathology v.
Myriad Genetics, Inc., that “a naturally occurring DNA
segment is a product of nature and not patent eligible
merely because it has been isolated.” 569 U.S. 576, 580
(2013). But the claims here are not directed to the cellfree fetal DNA itself. The Supreme Court in Myriad
expressly declined to extend its holding to method
claims reciting a process used to isolate DNA. See id.
at 595-96. The Court stated:
It is important to note what is not implicated
by this decision. First, there are no method
claims before this Court. Had Myriad created
an innovative method of manipulating genes
while searching for the BRCA1 and BRCA2
genes, it could possibly have sought a method
patent. But the processes used by Myriad to
isolate DNA were well understood by geneticists at the time of Myriad’s patents, were well

15a
understood, widely used, and fairly uniform insofar as any scientist engaged in the search for
a gene would likely have utilized a similar approach, and are not at issue in this case..
Id. (internal quotation marks omitted). Thus, in Myriad, the claims were ineligible because they covered a
gene that the inventors isolated but did not invent, rather than an innovative process for isolating a gene.
Here, we encounter the opposite situation, i.e., the
claims do not cover separated cell-free fetal DNA itself
but rather a process for selective removal of non-fetal
DNA to enrich a mixture in fetal DNA. That process
includes size parameters that the inventors engineered
to balance the practicalities of the specific problem that
they were facing, namely, removing enough cell-free
maternal DNA to enrich the mixture while leaving
enough cell-free fetal DNA to allow for testing. Thus,
the Supreme Court’s decision in Myriad is not on point
in this case where the inventors claimed to have conceived and reduced to practice, not the separated DNA,
but a method that uses unconventional size parameters
to perform the separation.
In our view, CellzDirect, while not directly on
point, is instructive. In CellzDirect, the inventors discovered the natural phenomenon “that some fraction of
hepatocytes are capable of surviving multiple freezethaw cycles.” 827 F.3d at 1045. Having made that discovery, they patented an “improved process of preserving hepatocytes,” that comprises freezing hepatocytes,
thawing the hepatocytes, removing the non-viable
hepatocytes, and refreezing the viable hepatocytes. Id.
We found that their claimed invention was patenteligible because it was “not simply an observation or
detection of the ability of hepatocytes to survive multi-

16a
ple freeze-thaw cycles. Rather, the claims are directed
to a new and useful method of preserving hepatocyte
cells.” Id. at 1048.
The inventors in CellzDirect did not invent hepatocytes or impart to hepatocytes an ability to survive cycles of freezing and thawing. Id. at 1045. Rather, they
discovered that hepatocytes naturally have that ability,
and they exploited that phenomenon in a patent-eligible
method. So too here, the inventors of the ’751 and ’931
patents obviously did not invent cell-free fetal DNA or
the relative size distribution of fetal and maternal cellfree DNA in maternal blood. And, like in CellzDirect,
the inventors used their discovery to invent a method
of preparing a fraction of DNA that includes physical
process steps to selectively remove some maternal
DNA in blood to produce a mixture enriched in fetal
DNA.
Roche argues that the techniques for size discriminating and selectively removing DNA fragments that
are used to practice the invention were well-known and
conventional. And we recognize, of course, that the inventors of the ’751 and ’931 patents did not invent centrifugation, chromatography, electrophoresis, or nanotechnology.1 But conventional separation technologies
can be used in unconventional ways. And Roche, the
party challenging the validity of the patents and thus
bearing the burden of proof on its § 101 challenge, has
presented no evidence that thresholds of 500 base pairs
and 300 base pairs were conventional for separating different types of cell-free DNA fragments. Thus, the
1

We note, without deciding, that Illumina argues that claim
11 of the ’931 patent requires the use of microarrays, which it
claims was a methodology not previously used with cell-free DNA.
Appellant’s Br. 40.

17a
claims are directed to a human-engineered method rather than the natural size distributions of cell-free
DNA. Moreover, while such conventionality considerations may be relevant to the inquiry under Alice/Mayo
step two, or to other statutory considerations such as
obviousness that are not at issue before us in this case,
they do not impact the Alice/Mayo step one question
whether the claims themselves are directed to a natural
phenomenon. Again, CellzDirect is instructive, where
we acknowledged that the inventors had not invented
the well-known processes of “freezing” and “thawing,”
but only in the context of the Alice/Mayo step two inquiry. 827 F.3d at 1050-51.
Rather than focusing on what the inventors of the
’751 and ’931 patents did not invent, we focus our Alice/Mayo step one analysis on what the inventors did
purport to invent and what they claimed in their patents: methods for preparing a fraction of cell-free
DNA by the physical process of size discriminating and
selectively removing DNA fragments longer than a
specified threshold. Those methods are “directed to”
more than merely the natural phenomenon that the inventors discovered. Accordingly, we conclude at step
one of the Alice/Mayo test that the claims are not directed to a patent-ineligible concept, and we need not
reach step two of the test.
III
In Ariosa, we recognized that the inventors had
made a discovery with implications that would allow
what had previously been discarded as medical waste
to be used as a tool for determining fetal characteristics. 788 F.3d at 1373. We acknowledged the profound
impact that the discovery had on the field of prenatal
medicine, including that it “created an alternative for

18a
prenatal diagnosis of fetal DNA that avoids the risks of
widely-used techniques that took samples from the fetus or placenta.” Id. Nevertheless, under guidance
from the Supreme Court, we determined that the discovery of that natural phenomenon, no matter how significant it was to the medical field, was not itself patentable, and neither was a method for detecting it. Id.
at 1379-80.
The invention in this case is the product of further
research on cell-free fetal DNA. This time, the inventors discovered that, not only does the fetal DNA exist
in the bloodstream of a pregnant mother, but it has
characteristics that make it distinguishable, and therefore separable, from the maternal DNA. Again, regardless how groundbreaking this additional discovery
may have been, the inventors were not entitled to patent the natural phenomenon that cell-free fetal DNA
tends to be shorter than cell-free maternal DNA.
“Groundbreaking, innovative, or even brilliant discovery does not by itself satisfy the § 101 inquiry.” Myriad, 569 U.S. at 591. Thus, they could not claim a method directed to the natural phenomenon, e.g., a method
for determining whether a fragment of cell-free DNA is
fetal or maternal based on its length. And they did not
attempt to patent such a method.
The inventors here patented methods of preparing
a DNA fraction. The claimed methods utilize the natural phenomenon that the inventors discovered by employing physical process steps to selectively remove
larger fragments of cell-free DNA and thus enrich a
mixture in cell-free fetal DNA. Though we make no
comment on whether the claims at issue will pass muster under challenges based on any other portion of the
patent statute, under § 101 the claimed methods are patent-eligible subject matter.

19a
CONCLUSION
We conclude that the claims of the ’751 and ’931 patents are directed to patent-eligible subject matter under 35 U.S.C. § 101. We therefore reverse the district
court’s grant of summary judgment and remand for
further proceedings.
REVERSED AND REMANDED

20a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1419
ILLUMINA, INC., SEQUENOM, INC.,
Plaintiffs-Appellants,
v.
ARIOSA DIAGNOSTICS, INC.,
ROCHE SEQUENCING SOLUTIONS, INC.,
ROCHE MOLECULAR SYSTEMS, INC.,
Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of California in
No. 3:18-cv-02847-SI, Senior Judge Susan Y. Illston.
REYNA, Circuit Judge, dissenting.
The claims, written description, and legal precedent converge to a conclusion that the ’751 and ’931 patents1 cover patent ineligible subject matter. The asserted claims are directed to a natural phenomenon, the
patents’ sole claimed advance is the discovery of that
natural phenomenon, and the application of the natural
phenomenon utilizes routine steps and conventional
procedures that are well known in the art.

1

U.S. Patent Nos. 9,580,751 and 9,738,931. The patents contain nearly identical written descriptions and claims. For economy, this opinion will reference only the ’751 patent.

21a
The patents in this appeal proclaim a surprising
discovery that has advanced the medical arts in an area
of great need. Without doubt, scientists are entitled to
great credit and recognition for such a discovery. But,
under U.S. patent law, they are not entitled to a patent.
DISCUSSION
I. The Claims are Directed to a Natural Phenomenon
At the time of the invention, skilled artisans knew
that cell-free fetal DNA (“cff-DNA”) existed, that it
could be detected in a sample of a pregnant woman’s
blood or serum, and that it was useful for reliably analyzing fetal genetic markers (for detecting certain diseases and disorders). ’751 patent col. 1 ll. 22-34. But for
some genetic markers that are found in the genomes of
both the mother and the fetus, skilled artisans faced a
problem: the relatively small amount of cff-DNA compared to maternal extracellular DNA in the mother’s
blood made it difficult to identify and analyze genetic
alterations in the fetus. Id. at col. 1 ll. 41-50.
The patent maintains that the problem was overcome when the inventors made a “surprising” discovery. Id. at col. 1 ll. 54-61. The inventors discovered
that cff-DNA tends to be shorter than cell-free maternal DNA in a mother’s blood. See ’751 patent at col. 1 ll.
54-67; see also Maj. Op. at 3-4, 8. The written description explains that the majority of cff-DNA in the mother’s blood plasma “has a relatively small size of approximately 500 base pairs or less, whereas the majority of
circulatory extracellular maternal DNA in maternal
plasma has a size greater than approximately 500 base
pairs.” Id. at col. 1 ll. 54-61. The written description
states that “[t]his surprising finding forms the basis of
the present invention.” Id. at col. 2 ll. 1-2 (emphasis
added).

22a
As explained in detail below, it is to this precise
surprising discovery of size discrepancy of cff-DNA in a
mother’s blood—an undisputed natural phenomenon—
that the claims at issue are directed. These claims,
thus, do not escape Alice step one.
A. The Claimed Method Steps Involve a
Natural Phenomenon
The first step of the Alice test requires that we determine whether the claims at issue are “directed to” a
natural phenomenon. Alice Corp. Pty. Ltd. v. CLS
Bank Intern, 573 U.S. 208, 217-18 (2014). To make this
determination, the Supreme Court has analyzed
whether the claims “in-volved” patent-ineligible subject
matter. Id. at 219; see also id. at 218-20 (citing
Gottschalk v. Benson, 409 U.S. 63, 71-72 (1972), and
Bilski v. Kappos, 561 U.S. 593, 599 (2010)). In Alice,
the Court determined that the claims were directed to
an abstract idea because the claims “involve” the abstract idea of “intermediated settlement,” a concept the
Court deemed a “fundamental economic practice.” Alice, 573 U.S. at 219. Like in Alice, the claims here are
directed to a natural phenomenon because they involve
a fundamental natural phenomenon, that cff-DNA
tends to be shorter than cell-free maternal DNA in a
mother’s blood, to produce a “mixture” of naturallyoccurring substances.
For example, the preamble of claim 1 of the ’751 patent informs us that the patent claims a method for
preparing a DNA “fraction” from a pregnant human
female that can be used for diagnostic purposes.2 The
2

Claim 1 recites:

A method for preparing a deoxyribonucleic acid (DNA) fraction from a pregnant human female useful for analyzing a ge-

23a
remainder of claim 1 recites the method steps for producing the fraction and analyzing it. Each step involves
the DNA taken from the blood plasma or serum of a
pregnant human female. The DNA itself is not changed
or altered.
The first step is achieved by (a) extracting DNA
from a substantially cell-free sample of blood plasma or
blood serum taken from a pregnant female. That sample is then used to (b) produce a “fraction” of the DNA
extracted in the first step (a). The fraction is produced
via (i) size discrimination of the extracellular circulatory DNA fragments, and (ii) selective removal of DNA
fragments greater than approximately 500 base pairs.
Claim 1 states that after the extraction, size discrimination, and selection and removal steps are completed,
the fraction comprises “a plurality of genetic loci of the
netic locus involved in a fetal chromosomal aberration, comprising:
(a) extracting DNA from a substantially cell-free sample of
blood plasma or blood serum of a pregnant human female
to obtain extracellular circulatory fetal and maternal DNA
fragments;
(b) producing a fraction of the DNA extracted in (a) by:
(i) size discrimination of extracellular circulatory DNA
fragments, and
(ii) selectively removing the DNA fragments greater
than approximately 500 base pairs, wherein the DNA
fraction after (b) comprises a plurality of genetic loci of
the extracellular circulatory fetal and maternal DNA;
and
(c) analyzing a genetic locus in the fraction of DNA produced in (b).
’751 patent at col. 7 ll. 54-67, col. 8 ll. 53-57; cf. ’931 patent at
col. 7 ll. 58-67, col. 8 ll. 57-63 (claim 1).

24a
extracellular circulator fetal and maternal DNA.” ’751
patent at col. 8 ll. 53-55. The Majority describes the resulting fraction as “a mixture enriched in fetal DNA.”
Maj. Op. at 12. But this mixture is made of the same
natural substances present in the original sample.
In sum, the claimed method begins with extracting
a sample of blood plasma or serum from a pregnant
mother that consists wholly of various naturally occurring substances, including cff-DNA. ’751 patent at col.
7. ll. 58-61. The claimed method separates those naturally occurring substances by size, leaving a “fraction”
of the original sample that is predominantly cff-DNA.
Id. at col. 7 ll. 63-67, col. 8 ll. 53-55. The claimed method
ends with analyzing the components of the “fraction,”
which contains cff-DNA. Id. at col. 8 ll. 56-57. The substances present throughout the process are naturally
occurring substances, and the claimed method steps do
not alter those substances. Thus, under the Supreme
Court’s step-one analysis, the claimed method steps
“involve” natural phenomenon and are, therefore, directed to a natural phenomenon.3
B. The Claimed Advance is a Natural Phenomenon
My conclusion that the method steps are directed
to a natural phenomenon is bolstered by our precedent
that looks to the “claimed advance” for determining
whether a claim is directed to patent ineligible subject
matter. E.g., Athena, 915 F.3d 743, 750 (Fed. Cir. 2019)
(Lourie, J.); Genetic Techs. Ltd. v. Merial L.L.C., 818
3

The dependent claims add detail such as techniques for conducting each method step and the detection of specific chromosomal aberrations. For example, claim 7 of the ’751 patent specifies
centrifugation for the size discrimination step and claim 10 specifies for the detection of a fetal chromosomal aberration causing
Down Syndrome. ’751 patent at col. 9 ll. 1-2, 7-8.

25a
F.3d 1369, 1375 (Fed. Cir. 2016); Ariosa Diagnostics,
Inc. v. Sequenom, Inc., 788 F.3d 1371 (Fed. Cir. 2015).
In Ariosa, we concluded that the claims were directed to a natural phenomenon relying, in part, on the
patent’s disclosure that the natural phenomenon was a
“surprising and unexpected finding.” 788 F.3d at 1376
(citation and quotation omitted). In Athena, we concluded that the claimed advance was “only in the discovery of the natural law” by relying, in part, on the
patent’s disclosure that the inventors “surprisingly
found” the natural law. 915 F.3d at 751 (citation and
quotation omitted). In Cleveland Clinic, we concluded
that the claims were directed to a natural law relying,
in part, on the patent’s disclosure that “the inventions
are ‘based on the discovery’” of the natural law. 859
F.3d at 1360-61 (citation omitted).
Here, the claimed advance is the inventors’ “surprising[]” discovery of a natural phenomenon—that cffDNA tends to be shorter than cell-free maternal DNA
in a mother’s bloodstream. See ’751 patent at col. 1 ll.
54-61. Like in Ariosa and Athena, the patent’s written
description identifies only the natural phenomenon as
the “surprising finding.” Id. at col. 1 l. 54-col. 2 l. 6.
And the patent explains that the natural phenomenon
“forms the basis of the present invention,” like the patent in Cleveland Clinic. Id. at col. 2 ll. 1-6. It is undisputed that the surprising discovery is a natural phenomenon. See Maj. Op. at 3-4, 9. The claimed advance
is, therefore, the discovery of the natural phenomenon.
The conclusion that the claimed advance is the discovery of a natural phenomenon is supported by the
fact that the claimed method steps begin and end with a
naturally occurring substance. See Ariosa, 788 F.3d at
1376. In Ariosa, we found ineligible process claims di-

26a
rected to a method of detecting paternally inherited cffDNA. Id. The claimed method steps began with a naturally occurring blood sample and ended with cff-DNA,
itself a naturally occurring substances. Id. In this case,
as in Ariosa, the inventors did not create or alter via
the claimed method steps any of the genetic information encoded in the cff-DNA in the claimed method
steps. Id.
The Majority avoids our claimed advance precedent
by reasoning that these claims belong in a distinct category of process claims for “method[s] of preparation.” 4
See Maj. Op. at 8. But characterizing the claims as a
“method of preparation” does not render inapplicable
this court’s precedent including Athena, Roche Molecular, Cleveland Clinic, Genetic Techs., and Ariosa. 5 Id.
Our precedent does not support such cherry picking. A
“method of preparation” is treated no differently than
any other process claim under our law. The statute
provides that the term “process” in § 101 encompasses
all “process, art or method” claims. 35 U.S.C. § 100(b).
It makes no distinction based on how the process or
method is characterized.
Here, the Majority fails to adequately address the
claimed advance inquiry. E.g., Maj. Op. at 8-13. Yet,
4

Cf., Rapid Litig. Mgmt. Ltd. v. CellzDirect, Inc., 827 F.3d
1042, 1046 (Fed. Cir. 2016) (reciting in claim 1’s preamble “[a]
method of producing a desired preparation”).
5

Athena Diagnostics, Inc. v. Mayo Collaborative Servs.,
LLC, 915 F.3d 743 (Fed. Cir. 2019); Roche Molecular Sys., Inc. v.
Cepheid, 905 F.3d 1363 (Fed. Cir. 2018); Cleveland Clinic Found.
v. True Health Diagnostics LLC, 859 F.3d 1352 (Fed. Cir. 2017);
Genetic Techs. Ltd. v. Merial L.L.C., 818 F.3d 1369 (Fed. Cir.
2016); Ariosa Diagnostics, Inc. v. Sequenom, Inc., 788 F.3d 1371
(Fed. Cir. 2015).

27a
the Majority maintains that the claimed methods are
not directed to the natural phenomenon—under the Alice/Mayo step-one inquiry—because they “include
physical process steps” that “achieve more than simply
observing that fetal DNA is shorter than maternal
DNA or detecting the presence of that phenomenon.”
Maj. Op. at 11. The problem with this approach is that
it conflates the Alice/Mayo step-one analysis with the
step-two analysis by focusing on whether and how the
claimed “physical process steps” transform the invention into more than an observation of the natural phenomenon. See Alice, 573 U.S. 217-18. The Supreme
Court describes step two of the analysis as “a search
for an ‘inventive concept’—i.e., an element or combination of elements that is ‘sufficient to ensure that the
pa-tent in practice amounts to significantly more than
a patent upon the [ineligible concept] itself.’” Id. (emphasis added) (quoting Mayo Collaborative Services v.
Prometheus Laboratories, Inc., 566 U.S. 66, 72-73
(2012)).
The Majority also suggests that the claimed advance is an improvement in “size discriminat[ion]” and
“selective[] remov[al]” techniques. See Maj. Op. at 911. The Majority reasons that the inventors used “specific process steps” of “size discriminating and selectively removing DNA fragments that are above a specified size threshold” and that these “concrete process
steps … exploit [the natural phenomenon] in a method
for preparation of a mixture enriched in fetal DNA.”
Id. at 9-10, 12. But whether the claimed method steps
are specific and concrete is not the point of analysis for
the “directed to” inquiry or for deter-mining the
claimed advance at step one. See Athena, 915 F.3d at
752 (concluding that the claims’ specific and concrete
nature “does not disturb our conclusion at step one”).

28a
The claimed advance suggested by the Majority, an
improvement in the underlying DNA-processing technology, is not supported by the claims or the written
description. As discussed below, the written description identifies the claimed method steps as well-known
or performed using commercially available tools or kits.
See ’751 patent at col. 2 l. 49-col. 3 l. 18, col. 3 ll. 49-50,
col. 3 l. 65-col. 4 l. 13, col. 5 ll. 45-50. Where a written
description identifies a technology as well-known or
performed using commercially available tools or kits,
that technology cannot logically constitute a claimed
advance. Ariosa, 788 F.3d at 751; see also Athena, 915
F.3d at 751 (identifying the claimed “immunological assay techniques [as] known per se in the art” and therefore not the claimed advance); Cleveland Clinic, 859
F.3d at 1361 (relying on the patent’s disclosure of
“commercially available testing kits” for detecting the
natural law).
Table 1, below, highlights the commercially available tools and kits that are identified in the written description as used to perform each claimed method step.
Table 1: Performance of Claimed Method Steps
Claimed Method Step
Claim 1(a), “extracting
DNA”
Claim 1(b)(i), “size discrimination”
Claim 1(b)(ii), “selectively
removing”

Commercially Available
Tool or Kit
QIAgen Maxi kit
(’751 patent col. 3 ll. 4950)
Invitrogen 1% agarose gel
(’751 patent col. 3 ll. 6667)
New England Biolabs 100
base pair ladder
(id. at col. 4 ll. 4-5)

29a
Lamda Hind III digest
(’751 patent col. 4 ll. 5-6)

Step (c), “analyzing a genetic locus”

QIAEX Gel Extraction
kit
(id. at col. 4 ll. 10-12)
Applied Biosystems (ABI)
7000 Sequence Detection
System
(’751 patent col. 4 ll. 1438)
TaqMan System and
TaqMan Minor Groove
Binder
(id. at col. 4 ll. 19-38)

The Majority turns to attorney argument to save
these claims. It reasons that Roche “has presented no
evidence that thresholds of 500 base pairs and 300 base
pairs were conventional for separating different types
of cell-free DNA fragments.” Maj. Op. at 15. But
whether a claim is directed to patent ineligible subject
matter depends on the claims and the written description, and not attorney argument. The absence, or silence, of conventionality of an aspect of an invention in
the written description does not render that aspect unconventional. There is nothing in the patent itself to
indicate that size selection based on 500 and 300 base
pairs was an unconventional human engineered parameter or that this aspect of the invention is the claimed
advance. This explains why the Majority’s repeated
statements concerning human engineered parameters
are unsupported by citations to the specification. See

30a
Maj. Op. at 10, 14-17. The claimed DNA-processing
technologies do not, therefore, constitute the claimed
advance. See Cleveland Clinic, 859 F.3d at 1361.
The Majority relies on CellzDirect. See Maj. Op. at
14-15. But CellzDirect is distinct from this case. In
CellzDirect, the inventors created a new and useful
cryopreservation technique comprising multiple freethaw cycles. 827 F.3d at 1048. The claimed invention
went beyond applying a known laboratory technique to
a newly discovered natural phenomenon and, instead,
created an entirely new laboratory technique. Id. Unlike in CellzDirect, the claimed method steps here are
not new, nor are the claimed techniques used in a new
or unconventional way. The method steps do not recite
or recognize the creation of a new laboratory technique.
The Majority recognizes that the inventors “did not invent centrifugation, chromatography, electrophoresis,
or nanotechnology”—the claimed techniques described
in the written description. Maj. Op. at 15.
The Majority further reasons that the claimed
method steps of size discrimination and selective removal “change the composition of the mixture, resulting in a DNA fraction that is different from the naturally-occurring fraction in the mother’s blood.” Id. at 9-10.
On this basis, the Majority concludes that the claimed
method in the patent “achieves more than simply observing that fetal DNA is shorter than maternal DNA,
or detecting the presence of that phenomenon.” Id.
The Majority’s position is declaratory, but not logical. That the claimed process changes the composition
of a sample of naturally occurring substances, but does
not alter the naturally occurring substances themselves, is not sufficient to render the claimed process
patent eligible. See Genetic Techs., 818 F.3d at 1374

31a
(holding ineligible the claimed process for using PCR to
amplify genomic DNA in a sample before detecting it);
Ariosa, 788 F.3d at 1373 (holding ineligible the claimed
process for using PCR to amplify cff-DNA in a sample
before detecting it).
Here, the claimed method steps of size discrimination and selective removal do not alter the naturally occurring substances in the sample of blood plasma or serum from a pregnant mother. Importantly, the majority correctly understands that the patent does not claim
the fraction in terms of chemical composition, as a naturally occurring substance that has been chemically altered by the method steps. Cf. Association for Molecular Pathology v. Myriad Genetics, Inc., 569 U.S. 576,
593 (2013) (“Myriad’s claims are simply not expressed
in terms of chemical composition, nor do they rely in
any way on the chemical changes that result from the
isolation of a particular section of DNA.”).
The Majority also suggests that the claimed methods are not directed to the natural phenomenon because the “correlation” that “a DNA fragment’s size
and its tendency to be either fetal or maternal” is not
recited in the claim. Maj. Op. at 12-13. Neither our
precedent nor that of the Supreme Court imposes such
a requirement. Requiring a recitation of the natural
phenomenon leads to the “drafts-man’s art” problem,
where a claim drafter has written a claim that is devoted to an ineligible concept, but the drafter managed to
avoid reciting the ineligible concept itself. It was this
recognition of “the draftsman’s art” that motivated the
Supreme Court to adopt the step-two, inventive concept inquiry. Mayo, 566 U.S. at 72 (citing Parker v.
Flook, 437 U.S. 584, 593 (1978)); see also Diamond v.
Diehr, 450 U.S. 175, 188-89 (1981).

32a
The Majority’s category-based approach also allows
claim draftsmanship to evade § 101’s safeguard at the
step-one inquiry. In Myriad, the Court concluded that
the claims at issue were “concerned primarily” with a
patent-ineligible product of nature and recognized that
“separating [a] gene from its surrounding genetic material is not an act of invention.” 569 U.S. at 591. Here,
the separation of genetic material from its surroundings is plainly the focus of the claims at issue. Yet, the
Majority distinguishes Myriad on the sole ground that
these claims have been drafted as method claims rather
than composition of matter claims. In any event,
whether a patent claim recites a process or a composition of matter does not impact the step-one, “directed
to” inquiry because this inquiry applies equally to composition of matter and process claims.6 I see no principled reason why under the facts of this case Myriad
should or should not apply simply because this case
presents a method claim and not a composition of matter claim. Regardless of whether the asserted claims
are to a composition of matter or a “method of preparation,” the purpose of § 101 remains the same: to safeguard against claims that monopolize a law of nature,
natural phenomenon, or abstract idea. See Alice, 573
U.S. at 216.

6

E.g., Myriad, 569 U.S. at 591 (analyzing the “focus” of the
relevant composition of matter claims), Mayo, 566 U.S. at 72-73
(analyzing the “focus” of the relevant process claims); Bilski, 561
U.S. at 609—13 (analyzing whether the process claims involved an
abstract idea); Diehr, 450 U.S. at 192 (analyzing whether the process claims were “drawn to” a mathematical formula or a patenteligible process applying that formula); Funk Bros. Seed Co. v.
Kalo Inoculant Co., 333 U.S. 127, 132 (1948) (analyzing eligibility
of “product claims”).

33a
II. The Claims Are Do Not Survive Step Two
Step two of the Alice inquiry is a search for other
elements that transform ineligible claims into significantly more than a patent upon the natural law or phenomenon. See Mayo, 566 U.S. at 72-73. Mayo made
clear that transformation into a patent eligible application requires “more than simply stat[ing] the law of nature while adding the words ‘apply it.’” Id. at 72.
In step two, we ask: “[w]hat else is there in the
claims before us?” Id. at 78. This question is a lifeline,
one that is limited to “additional features” of the claim
that transforms the nature of the claim into a patenteligible application. Id. at 77; Ariosa, 788 F.3d at 1377.
For method claims that encompass natural phenomena, the method steps are the additional features
that must be new and useful. See Parker v. Flook, 437
U.S. 584, 591 (1978) (“The process itself, not merely the
mathematical algorithm, must be new and useful.”).
We must assess whether the additional features are
new and useful within the field generally, not in the
context of their particular application to the newly discovered phenomenon. See Roche Molecular, 905 F.3d
at 1372; see also Athena, 915 F.3d at 754.
The method steps under review do not transform
the nature of the claims into patent-eligible applications. The three claimed method steps of (a) extracting
DNA, (b) producing a fraction of DNA by size discrimination, and (c) analyzing a genetic locus are not new,
either alone or in combination. As illustrated above in
Table 1, the written description indicates that the laboratory techniques of the claimed method are commercially available. And the written description explains that step (b)’s requirement of producing a frac-

34a
tion by size discrimination “can be brought about by a
variety of methods.” ’751 patent at col. 2 ll. 49-51.
Contrary to the majority’s belief, that the size discrimination and selective removal method steps were
applied for the first time to the newly discovered natural phenomenon does not render those steps transformative, new and useful, under the Alice/Mayo step-two
inquiry. See Roche Molecular, 905 F.3d at 1372; see also Athena, 915 F.3d at 754. In Roche Molecular, we
held that the method claims at issue, which involved
PCR amplification of DNA, did not contain an inventive
concept even though the inventors were the first to use
PCR to detect the claimed natural phenomenon. 905
F.3d at 1372. We reasoned that the claims did not contain an inventive concept because they did not “disclose
any ‘new and useful’ improvement to PCR protocols or
DNA amplification techniques in general.” Id. see also
Athena, 915 F.3d at 754 (noting that “to supply an inventive concept, the sequence of claimed steps must do
more than adapt a conventional assay to a newly discovered natural law”).
Like in Roche Molecular, the claimed method steps
here do not disclose any new and useful improvement
to DNA separation techniques. And they do not disclose an unconventional assay to apply the newly discovered natural phenomenon. As noted above in the
step-one discussion, the Majority reasons that Roche
has presented “no evidence that thresholds of 500 base
pairs and 300 base pairs were conventional for separating different types of cell-free DNA fragments.” Maj.
Op. at 15. But, like in Roche, the addition of these socalled thresholds—which are claimed as approximations conforming to the natural phenomenon—are nothing more than an adaptation of commercially available

35a
DNA separation techniques to the natural phenomenon.
The dependent claims also fail to transform the nature of the claims because they too rely on the same
commercially available, routine, and conventional techniques as claim 1, only they provide more specificity on
which techniques to use (e.g., ’751 patent, claim 7, identifying “density gradient centrifugation” for the size
discrimination method).
For example, the written description describes two
examples where experiments illustrate the application
of the natural phenomenon. ’751 patent at col. 3 l. 30col. 6 l. 46. The results of Example 1, as captured in
Table 1, demonstrate that “DNA fragments originating
from the fetus were almost completely of sizes smaller
than 500 base pairs with around 70% being of fetal
origin for sizes smaller than 300 base pairs.” Id. at col.
4 l. 50-col. 5 l. 7. The results of Example 2 demonstrate
that fetal alleles for “D21S11,” a genetic marker found
in the human chromosome related to Down Syndrome,
could be detected in cell-free DNA samples from which
fragments greater than 500 base pairs or 300 base pairs
had been removed. The patent explains that both experiments were conducted using known laboratory
techniques and commercially available testing kits.
E.g., id. at col. 3 ll. 49-50, col. 3 l. 65-col. 4 l. 13, col. 5 ll.
45-50; see also id. at col. 2 l. 61-col. 3 l. 18.
Simply appending routine, conventional steps to a
natural phenomenon, specified at a high level of generality, is not enough to supply an inventive concept.
Thus, the claims of the patent in this appeal that are
directed to patent ineligible subject matter are not
transformed into significantly more than a patent upon

36a
the natural law or phenomenon. See Mayo, 566 U.S. at
72-73.
III. Preemption
The Supreme Court has made clear that the principle of preemption is the basis for the judicial exceptions
to patentability. Alice, 573 U.S. at 216-17. As Mayo
emphasized, “there is a danger that the grant of patents that tie up the[] use [of laws of nature] will inhibit
future innovation premised upon them.” 566 U.S. at 86.
Here, the claims are drafted in a manner that tie up
future innovations premised upon the natural phenomenon because no skilled artisan would be entitled to rely on the natural phenomenon to isolate cff-DNA. That
a skilled artisan could isolate or enrich cff-DNA using
some unclaimed technique is not dispositive for
preemption. See Athena Diagnostics, Inc. v. Mayo Collaborative Servs., 927 F.3d 1333, 1351 (Fed. Cir. 2019)
(Chen, J., concurring in the denial of the petition for rehearing en banc) (“That claims 7 and 9 do not preempt
all ways of observing the law of nature isn’t decisive, as
none of the steps recited therein add anything inventive to the claims.”). As in Athena, the only claimed
advance here is the discovery of the natural phenomenon, and as drafted, these claims significantly preempt
use of that natural phenomenon.
CONCLUSION
Much of what we are as humans has its source in
our respective DNA, including particular genetic aberrations. The development of medical and scientific procedures to detect and diagnose genetic aberrations, like
those involved in the patents in this appeal, count
among the great discoveries of modern medicine. Such
procedures may qualify for a patent, but DNA itself, or

37a
a segment of DNA that discloses an aberration, like the
entirety of the human genome, does not.
I dissent because while I do not doubt that process
claims that are directed to natural phenomenon could
be patent eligible subject matter, this is not such a case.

39a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1419
ILLUMINA, INC., SEQUENOM, INC.,
Plaintiffs-Appellants,
v.
ARIOSA DIAGNOSTICS, INC.,
ROCHE SEQUENCING SOLUTIONS, INC.,
ROCHE MOLECULAR SYSTEMS, INC.,
Defendants-Appellees.
Decided: March 17, 2020
Appeal from the United States District Court
for the Northern District of California in
No. 3:18-cv-02847-SI, Senior Judge Susan Y. Illston.
*

*

*

Before LOURIE, MOORE, and REYNA,
Circuit Judges.
Opinion for the court filed by
Circuit Judge LOURIE.
Dissenting opinion filed by Circuit Judge REYNA.
LOURIE, Circuit Judge.
Illumina, Inc. and Sequenom, Inc. (collectively, “Illumina”) appeal from a decision of the United States

40a
District Court for the Northern District of California
that claims 12, 4-5, and 9-10 of U.S. Patent 9,580,751
(the “’751 patent”) and claims 1-2 and 10-14 of U.S. Patent 9,738,931 (the “’931 patent”) are invalid under 35
U.S.C. § 101 as directed to an ineligible natural phenomenon. Illumina, Inc. v. Ariosa Diagnostics, Inc.,
356 F. Supp. 3d 925 (N.D. Cal. 2018) (“Decision”). Because we conclude that the claims are directed to patent-eligible subject matter, we reverse.
BACKGROUND
“In 1996, Drs. Dennis Lo and James Wainscoat discovered cell-free fetal DNA in maternal plasma and serum, the portion of maternal blood samples that other
researchers had previously discarded as medical
waste.” Ariosa Diagnostics, Inc. v. Sequenom, Inc.,
788 F.3d 1371, 1373 (Fed. Cir. 2015). They applied for a
patent, and, in 2001, they obtained U.S. Patent
6,258,540, which claimed a method for detecting the
small fraction of paternally inherited cell-free fetal
DNA in the plasma and serum of a pregnant woman.
Id. In 2015, we held that the claims of that patent were
invalid under 35 U.S.C. § 101 because they were directed to “matter that is naturally occurring”—i.e., the
natural phenomenon that cell-free fetal DNA exists in
maternal blood. Id. at 1376.
The present case involves two patents that are unrelated to the patent held invalid in Ariosa, but rather
claim priority from a European patent application filed
in 2003. The ’751 and ’931 patents at issue in this case,
which are related to each other and have largely identical specifications, begin by acknowledging the natural
phenomenon that was at issue in Ariosa: “[I]t has been
shown that in the case of a pregnant woman extracellular fetal DNA is present in the maternal circulation and

41a
can be detected in maternal plasma . … ” ’751 patent
col. 1 ll. 23-25. The patents then identify a problem that
was the subject of further research on cell-free fetal
DNA in maternal blood:
[T]he major proportion (generally >90%) of the
extracellular DNA in the maternal circulation
is derived from the mother. This vast bulk of
maternal circulatory extracellular DNA renders it difficult, if not impossible, to determine
fetal genetic alternations [sic] … from the small
amount of circulatory extracellular fetal DNA.
Id. col. 1 ll. 42-50. In simple terms, the problem that
the inventors encountered was that, although it was
known that cell-free fetal DNA existed in the mother’s
bloodstream, there was no known way to distinguish
and separate the tiny amount of fetal DNA from the
vast amount of maternal DNA.
The inventors of the ’751 and ’931 patents attempted to find a solution to that problem. First, they made
a discovery:
An examination of circulatory extracellular fetal DNA and circulatory extracellular maternal
DNA in maternal plasma has now shown that,
surprisingly, the majority of the circulatory extracellular fetal DNA has a relatively small size
of approximately 500 base pairs or less, whereas the majority of circulatory extracellular maternal DNA in maternal plasma has a size
greater than approximately 500 base pairs.
Id. col. 1 ll. 54-61. Having made that discovery, they
used it to develop a solution to the identified problem of
distinguishing fetal DNA from maternal DNA in the
mother’s bloodstream:

42a
This surprising finding forms the basis of the
present invention according to which separation of circulatory extracellular DNA fragments which are smaller than approximately
500 base pairs provides a possibility to enrich
for fetal DNA sequences from the vast bulk of
circulatory extracellular maternal DNA.
Id. col. 2 ll. 1-6.
The claims of the ’751 and ’931 patents are directed
to that solution. Specifically, they claim methods of
preparing a fraction of cell-free DNA that is enriched in
fetal DNA. Claim 1 is the only independent claim in
each patent:
1. A method for preparing a deoxyribonucleic acid (DNA) fraction from a pregnant human female useful for analyzing a genetic locus
involved in a fetal chromosomal aberration,
comprising:
(a) extracting DNA from a substantially
cell-free sample of blood plasma or blood serum
of a pregnant human female to obtain extracellular circulatory fetal and maternal DNA fragments;
(b) producing a fraction of the DNA extracted in (a) by:
(i) size discrimination of extracellular
circulatory DNA fragments, and
(ii) selectively removing the DNA
fragments greater than approximately 500 base
pairs,

43a
wherein the DNA fraction after (b) comprises a plurality of genetic loci of the extracellular circulatory fetal and maternal DNA; and
(c) analyzing a genetic locus in the fraction
of DNA produced in (b).
’751 patent col. 7 l. 54-col. 8 l. 57.
1. A method, comprising:
(a) extracting DNA comprising maternal
and fetal DNA fragments from a substantially
cell-free sample of blood plasma or blood serum
of a pregnant human female;
(b) producing a fraction of the DNA extracted in (a) by:
(i) size discrimination of extracellular
circulatory fetal and maternal DNA fragments,
and
(ii) selectively removing the DNA
fragments greater than approximately 300 base
pairs,
wherein the DNA fraction after (b) comprises extracellular circulatory fetal and maternal DNA fragments of approximately 300
base pairs and less and a plurality of genetic loci of the extracellular circulatory fetal and maternal DNA fragments; and
(c) analyzing DNA fragments in the fraction of DNA produced in (b).
’931 patent col. 7 l. 58-col. 8 l. 63.
Dependent claims in each patent place further limitations on the size discrimination and selective removal
processes recited in step (b) of the method claims. For

44a
example, dependent claim 7 of the ’751 patent recites
that “the size discrimination in (b) comprises centrifugation,” and claim 8 further limits it to “density gradient centrifugation.” ’751 patent col. 9 ll. 1-4. Likewise,
dependent claims 4-10 of the ’931 patent recite that step
(b) can comprise “chromatography,” “electrophoresis,”
“centrifugation,” and/or “nanotechnological means.”
’931 patent col. 9 ll. 1-14.
Illumina filed suit against Ariosa Diagnostics, Inc.,
Roche Sequencing Solutions, Inc., and Roche Molecular
Systems, Inc. (collectively, “Roche”) alleging infringement of the ‘751 and ’931 patents. Roche moved for
summary judgment that the asserted claims are invalid
under 35 U.S.C. § 101. The district court granted
Roche’s motion for summary judgment, holding that
the claims of the ’751 and ’931 patents are directed to
ineligible subject matter. Decision, 356 F. Supp. 3d at
935. The court entered judgment in favor of Roche, and
Illumina appealed. We have jurisdiction under 28
U.S.C. § 1295(a)(1).
DISCUSSION
We review a grant of summary judgment according
to the law of the regional circuit. Kaneka Corp. v.
Xiamen Kingdomway Grp. Co., 790 F.3d 1298, 1303
(Fed. Cir. 2015) (citing Halo Elecs., Inc. v. Pulse Elecs.,
Inc., 769 F.3d 1371, 1377 (Fed. Cir. 2014)). In the Ninth
Circuit, a grant of summary judgment is reviewed de
novo. Leever v. Carson City, 360 F.3d 1014, 1017 (9th
Cir. 2004) (citing Hargis v. Foster, 312 F.3d 404, 409
(9th Cir. 2002)). Summary judgment is appropriate
when “there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56.

45a
I
Section 101 provides that “Whoever invents or discovers any new and useful process, machine, manufacture, or composition of matter, or any new and useful
improvement thereof, may obtain a patent therefor … .” 35 U.S.C. § 101. Given the expansive terms of
§ 101, “Congress plainly contemplated that the patent
laws would be given wide scope”; the legislative history
likewise indicated that “Congress intended statutory
subject matter to ‘include anything under the sun that
is made by man.’” Diamond v. Chakrabarty, 447 U.S.
303, 308-09 (1980) (internal citation omitted).
The Supreme Court has held that § 101 “contains
an important implicit exception. ‘[L]aws of nature,
natural phenomena, and abstract ideas’ are not patentable.” Mayo Collaborative Servs. v. Prometheus Labs.,
Inc., 566 U.S. 66, 70 (2012) (alteration in original) (quoting Diamond v. Diehr, 450 U.S. 175, 185 (1981)). These
exceptions exist because monopolizing the basic tools of
scientific work “might tend to impede innovation more
than it would tend to promote it.” Id. at 71. However,
the Supreme Court has advised that these exceptions
must be applied cautiously, as “too broad an interpretation of this exclusionary principle could eviscerate patent law.” Id.
Laws of nature and natural phenomena are not patentable, but applications and uses of such laws and
phenomena may be patentable. A claim to otherwise
statutory subject matter does not become ineligible by
its use of a law of nature or natural phenomenon. See
Diehr, 450 U.S. at 187; Parker v. Flook, 437 U.S. 584,
590 (1978). On the other hand, adding “conventional
steps, specified at a high level of generality,” to a law of
nature or natural phenomenon does not make a claim to

46a
the law or phenomenon patentable. Mayo, 566 U.S. at
82.
To distinguish claims to patent-eligible applications
of laws of nature and natural phenomena from claims
that impermissibly tie up such laws and phenomena, we
apply the two-part test set forth by the Supreme
Court. First, we examine whether the claims are “directed to” a law of nature or natural phenomenon. Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 573 U.S. 208, 217
(2014). If—and only if—they are, then we proceed to
the second inquiry, where we examine whether the limitations of the claim apart from the law of nature or
natural phenomenon, considered individually and as an
ordered combination, “‘transform the nature of the
claim’ into a patent-eligible application.” Id. (quoting
Mayo, 566 U.S. at 78).
II
This is not a diagnostic case. And it is not a method
of treatment case. It is a method of preparation case.
Under Mayo, we have consistently held diagnostic
claims unpatentable as directed to ineligible subject
matter. See Athena Diagnostics, Inc. v. Mayo Collaborative Servs., LLC, 927 F.3d 1333, 1352 (Fed. Cir. 2019)
(Moore, J., dissenting from denial of rehearing en banc)
(“Since Mayo, we have held every single diagnostic
claim in every case before us ineligible.”); see also, e.g.,
Athena Diagnostics, Inc. v. Mayo Collaborative Servs.,
LLC, 915 F.3d 743 (Fed. Cir. 2019); Cleveland Clinic
Found. v. True Health Diagnostics LLC, 859 F.3d 1352
(Fed. Cir. 2017); Cleveland Clinic Found. v. True
Health Diagnostics LLC, 760 F. App’x 1013 (Fed. Cir.
2019). In contrast, we have held that method of treatment claims are patent-eligible. See Endo Pharm. Inc.
v. Teva Pharm. USA, Inc., 919 F.3d 1347 (Fed. Cir.

47a
2019); Natural Alternatives Int’l, Inc. v. Creative
Compounds, LLC, 918 F.3d 1338 (Fed. Cir. 2019); Vanda Pharm. Inc. v. West-Ward Pharm. Int’l Ltd., 887
F.3d. 1117 (Fed. Cir. 2018). The claims in this case do
not fall into either bucket, and we consider the claims
under the Alice/Mayo test.
Here, it is undisputed that the inventors of the ’751
and ’931 patents discovered a natural phenomenon.
But at step one of the Alice/Mayo test, “it is not enough
to merely identify a patent-ineligible concept underlying the claim; we must determine whether that patentineligible concept is what the claim is ‘directed to.’”
Rapid Litig. Mgmt. Ltd. v. CellzDirect, Inc., 827 F.3d
1042, 1050 (Fed. Cir. 2016). The focus of the dispute in
this case is whether the claims of the ’751 and ’931 patents are “directed to” the natural phenomenon, i.e.,
whether they claim the discovered natural phenomenon
itself versus eligible subject matter that exploits the
discovery of the natural phenomenon.
As an initial matter, there are differences between
the district court and the parties about how to articulate the natural phenomenon that the inventors discovered. The district court appeared to find that the relevant natural phenomenon is either the “testable quantity” of fetal DNA or “test results” obtained from that
fetal DNA. Decision, 356 F. Supp. 3d at 933. Roche’s
articulation of the natural phenomenon was a moving
target throughout its briefing and at oral argument, but
appears to be the “size distribution” of fetal to maternal
cell-free DNA in a mother’s blood reflected in Table 1
of the specification, with a particular focus on the number “500 base pairs” as the critical dividing line between the two. See Appellee’s Br. 14, 18, 21; Oral Arg.
27:58, 28:35, 29:16. And Illumina asserts more simply
that the inventors’ discovery was that “fetal cell-free

48a
DNA tends to be shorter than maternal cell-free
DNA.” Appellant’s Br. 24; see also id. at 8 (“[I]n a
sample of cell-free DNA from a pregnant woman, the
DNA that arises from the fetus is smaller on average
than the DNA that arises from the mother.”).
We take note of Roche’s inability—despite its status as the party challenging the validity of the patents—to clearly identify the natural phenomenon that
forms the basis of its challenge. But, ultimately, we
find that the parties’ respective articulations reflect
distinctions without differences. For simplicity, we
adopt Illumina’s articulation of the natural phenomenon, i.e., that cell-free fetal DNA tends to be shorter
than cell-free maternal DNA in a mother’s bloodstream. We thus turn to the crucial question on which
this case depends: whether the claims are “directed to”
that natural phenomenon. We conclude that the claims
are not directed to that natural phenomenon but rather
to a patent-eligible method that utilizes it.
The claims in this case are directed to methods for
preparing a fraction of cell-free DNA that is enriched in
fetal DNA. The methods include specific process
steps—size discriminating and selectively removing
DNA fragments that are above a specified size threshold—to increase the relative amount of fetal DNA as
compared to maternal DNA in the sample. ’751 patent
col. 7 ll. 63-67. Those process steps change the composition of the mixture, resulting in a DNA fraction that is
different from the naturally-occurring fraction in the
mother’s blood. Thus, the process achieves more than
simply observing that fetal DNA is shorter than maternal DNA or detecting the presence of that phenomenon.

49a
The dependent claims further illustrate the concrete nature of the claimed process steps. For example,
claims 7-8 of the ’751 and claims 8-9 of the ’931 patent
require that the size discrimination step comprise “centrifugation,” and specifically “density gradient centrifugation.” ’751 patent col. 9 ll. 1-4; ’931 patent col. 9 ll. 912. Other dependent claims in the ’931 patent comprise
other discrimination and separation means, such as
“high performance liquid chromatography” (claims 4-5),
“capillary electrophoresis” (claims 6-7), or “nanotechnological means” (claim 10). These dependent claims are
supported by the specification’s description of the physical means by which the size discrimination and selective removal step of the claims can be achieved:
The size separation of the extracellular DNA in
said serum or plasma sample can be brought
about by a variety of methods, including but
not limited to: chromatography or electrophoresis such as chromatography on agarose or
polyacrylamide gels, ion-pair reversed-phase
high performance liquid chromatography [], capillary electrophoresis in a self-coating, lowviscosity polymer matrix [], selective extraction in microfabricated electrophoresis devices
[], microchip electrophoresis on reduced viscosity polymer matrices [], adsorptive membrane
chromatography [] and the like; density gradient centrifugation []; and methods utilising [sic]
nanotechnological means such as microfabricated entropic trap arrays [] and the like.
’931 patent col. 2 l. 61-col. 3 l. 18 (citations omitted); see
also id. col. 4 ll. 15-22 (“3. The gel was electrophoresed
at 80 Volt for 1 hour. 4. The Gel [sic] was cut into pieces corresponding to specific DNA sizes … .”). As described by the specification, the inventors used these

50a
concrete process steps, not merely to observe the presence of the phenomenon that fetal DNA is shorter than
maternal DNA, but rather to exploit that discovery in a
method for preparation of a mixture enriched in fetal
DNA.
Roche insists that the claims in this case are no
more eligible than the claims at issue in Ariosa. We
disagree. In Ariosa, the relevant independent claims
were directed to a method “for detecting a paternally
inherited nucleic acid” (claims 1 and 24) or a method
“for performing a prenatal diagnosis” (claim 25). See
Ariosa, 788 F.3d at 1373-74. The only operative steps
in the claims were “amplifying” (i.e., making more of)
the cell-free fetal DNA and then “detecting [it],” “subjecting [it] … to a test,” or “performing nucleic acid
analysis on [it] to detect [it].” Id. We found those
claims ineligible because, like the invalid diagnostic
claims at issue in Mayo, Athena, and Cleveland Clinic,
they were directed to detecting a natural phenomenon.
In essence, the inventors in Ariosa discovered that cellfree fetal DNA exists, and then obtained patent claims
that covered only the knowledge that it exists and a
method to see that it exists. Here, in contrast, the
claims are directed to more than just the correlation
between a DNA fragment’s size and its tendency to be
either fetal or maternal. And the claims do not merely
cover a method for detecting whether a cell-free DNA
fragment is fetal or maternal based on its size. Rather
the claimed method removes some maternal DNA from
the mother’s blood to prepare a fraction of cell-free
DNA that is enriched in fetal DNA. Thus, the claims in
this case are different from the claims that we held invalid in Ariosa.
Roche also argues, based on the Supreme Court’s
decision in Association for Molecular Pathology v.

51a
Myriad Genetics, Inc., that “a naturally occurring DNA
segment is a product of nature and not patent eligible
merely because it has been isolated.” 569 U.S. 576, 580
(2013). But the claims here are not directed to the cellfree fetal DNA itself. The Supreme Court in Myriad
expressly declined to extend its holding to method
claims reciting a process used to isolate DNA. See id.
at 595-96. The Court stated:
It is important to note what is not implicated
by this decision. First, there are no method
claims before this Court. Had Myriad created
an innovative method of manipulating genes
while searching for the BRCA1 and BRCA2
genes, it could possibly have sought a method
patent. But the processes used by Myriad to
isolate DNA … are not at issue in this case.
Id. Thus, in Myriad, the claims were ineligible because
they covered a gene rather than a process for isolating
it. Here, we encounter the opposite situation, i.e., the
claims do not cover cell-free fetal DNA itself but rather
a process for selective removal of non-fetal DNA to enrich a mixture in fetal DNA. Thus, the Supreme
Court’s decision in Myriad is not on point.
In our view, CellzDirect, while not directly on
point, is instructive. In CellzDirect, the inventors discovered the natural phenomenon “that some fraction of
hepatocytes are capable of surviving multiple freezethaw cycles.” 827 F.3d at 1045. Having made that discovery, they patented an “improved process of preserving hepatocytes,” that comprises freezing hepatocytes,
thawing the hepatocytes, removing the non-viable
hepatocytes, and refreezing the viable hepatocytes. Id.
We found that their claimed invention was patenteligible because it was “not simply an observation or

52a
detection of the ability of hepatocytes to survive multiple freeze-thaw cycles. Rather, the claims are directed
to a new and useful method of preserving hepatocyte
cells.” Id. at 1048.
The inventors in CellzDirect did not invent hepatocytes or impart to hepatocytes an ability to survive cycles of freezing and thawing. Id. at 1045. Rather, they
discovered that hepatocytes naturally have that ability,
and they exploited that phenomenon in a patent-eligible
method. So too here, the inventors of the ’751 and ’931
patents obviously did not invent cell-free fetal DNA or
the relative size distribution of fetal and maternal cellfree DNA in maternal blood. And, like in CellzDirect,
the inventors used their discovery to invent a method
of preparing a fraction of DNA that includes physical
process steps to selectively remove some maternal
DNA in blood to produce a mixture enriched in fetal
DNA.
Roche argues that the techniques for size discriminating and selectively removing DNA fragments that
are used to practice the invention were well-known and
conventional. And we recognize, of course, that the inventors of the ’751 and ’931 patents did not invent centrifugation, chromatography, electrophoresis, or nanotechnology.1 But while such considerations may be relevant to the inquiry under Alice/Mayo step two, or to
other statutory considerations such as obviousness that
are not at issue before us in this case, they do not impact the Alice/Mayo step one question whether the
claims themselves are directed to a natural phenome1

We note, without deciding, that Illumina argues that claim
11 of the ’931 patent requires the use of micro-arrays, which it
claims was a methodology not previously used with cell-free DNA.
Appellant’s Br. 40.

53a
non. Again, CellzDirect is instructive, where we
acknowledged that the inventors had not invented the
well-known processes of “freezing” and “thawing,” but
only in the context of the Alice/Mayo step two inquiry.
827 F.3d at 1050-51.
Rather than focusing on what the inventors of the
’751 and ’931 patents did not invent, we focus our Alice/Mayo step one analysis on what the inventors did
purport to invent and what they claimed in their patents: methods for preparing a fraction of cell-free
DNA by the physical process of size discriminating and
selectively removing DNA fragments longer than a
specified threshold. Those methods are “directed to”
more than merely the natural phenomenon that the inventors discovered. Accordingly, we conclude at step
one of the Alice/Mayo test that the claims are not directed to a patent-ineligible concept, and we need not
reach step two of the test.
III
In Ariosa, we recognized that the inventors had
made a discovery with implications that would allow
what had previously been discarded as medical waste
to be used as a tool for determining fetal characteristics. 788 F.3d at 1373. We acknowledged the profound
impact that the discovery had on the field of prenatal
medicine, including that it “created an alternative for
prenatal diagnosis of fetal DNA that avoids the risks of
widely-used techniques that took samples from the fetus or placenta.” Id. Nevertheless, under guidance
from the Supreme Court, we determined that the discovery of that natural phenomenon, no matter how significant it was to the medical field, was not itself patentable, and neither was a method for detecting it. Id.
at 137980.

54a
The invention in this case is the product of further
research on cell-free fetal DNA. This time, the inventors discovered that, not only does the fetal DNA exist
in the bloodstream of a pregnant mother, but it has
characteristics that make it distinguishable, and therefore separable, from the maternal DNA. Again, regardless how groundbreaking this additional discovery
may have been, the inventors were not entitled to patent the natural phenomenon that cell-free fetal DNA
tends to be shorter than cell-free maternal DNA.
“Groundbreaking, innovative, or even brilliant discovery does not by itself satisfy the § 101 inquiry.” Myriad, 569 U.S. at 591. Thus, they could not claim a method directed to the natural phenomenon, e.g., a method
for determining whether a fragment of cell-free DNA is
fetal or maternal based on its length. And they did not
attempt to patent such a method.
The inventors here patented methods of preparing
a DNA fraction. The claimed methods utilize the natural phenomenon that the inventors discovered by employing physical process steps to selectively remove
larger fragments of cell-free DNA and thus enrich a
mixture in cell-free fetal DNA. Though we make no
comment on whether the claims at issue will pass muster under challenges based on any other portion of the
patent statute, under § 101 the claimed methods are
patent-eligible subject matter.
CONCLUSION
We conclude that the claims of the ’751 and ’931 patents are directed to patent-eligible subject matter under 35 U.S.C. § 101. We therefore reverse the district
court’s grant of summary judgment and remand for
further proceedings.
REVERSED AND REMANDED

55a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1419
ILLUMINA, INC., SEQUENOM, INC.,
Plaintiffs-Appellants,
v.
ARIOSA DIAGNOSTICS, INC.,
ROCHE SEQUENCING SOLUTIONS, INC.,
ROCHE MOLECULAR SYSTEMS, INC.,
Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of California in
No. 3:18-cv-02847-SI, Senior Judge Susan Y. Illston.

REYNA, Circuit Judge, dissenting.
The Majority holds that the asserted patents are
directed to patent-eligible subject matter. I respectfully disagree and dissent. I conclude that the claims are
directed to a natural phenomenon. The patents’ only
claimed advance is the discovery of that natural phenomenon. The claims, the written description, and the
legal precedent applicable to this case all support the
conclusion that the patents are ineligible.

56a
I.

The ’751 and ’931 Patents1

At the time of the invention, skilled artisans knew
that cell-free fetal DNA (“cff-DNA”) existed, that it
could be detected in a sample of a pregnant woman’s
blood or serum, and that it was useful for reliably analyzing fetal genetic markers (for detecting certain diseases and disorders). ’751 patent col. 1 ll. 22-34. But for
some genetic markers that are found in the genomes of
both the mother and the fetus, skilled artisans faced a
problem: the relatively small amount of cff-DNA compared to maternal extracellular DNA in the mother’s
blood made it difficult to identify and analyze genetic
alterations in the fetus. Id. at col. 1 ll. 4150.
The patent maintains that the problem was overcome when the inventors made a “surprising” discovery. Id. at col. 1 ll. 54-61. The inventors discovered a
natural phenomenon: that cff-DNA tends to be shorter
than cell-free maternal DNA in a mother’s blood. See
id. at col. 1 ll. 5467; see also Maj. Op. at 3-4, 8. The written description explains that the majority of cff-DNA in
the mother’s blood “has a relatively small size of approximately 500 base pairs or less, whereas the majority of circulatory extracellular maternal DNA in maternal plasma has a size greater than approximately 500
base pairs.” Id. at col. 1 ll. 54-61. The written description states that “[t]his surprising finding forms the basis of the present invention.” Id. at col. 2 ll. 1-2 (emphasis added).
Other than the surprising discovery, nothing else in
the specification or the record before us indicates there
1

U.S. Patent Nos. 9,580,751 and 9,738,931. The patents contain nearly identical written descriptions and claims. For economy, this opinion will reference only the ’751 patent.

57a
was anything new or useful about the claimed invention. In two examples, the patent describes experiments that illustrate the natural phenomenon and a potential application. Id. at col. 3 l. 30-col. 6 l. 46. The results of Example 1, as captured in Table 1, demonstrate
that “DNA fragments originating from the fetus were
almost completely of sizes smaller than 500 base pairs
with around 70% being of fetal origin for sizes smaller
than 300 bases.” Id. at col. 4 l. 50-col. 5 l. 7. The results
of Example 2 demonstrate that fetal alleles for
“D21S11,” a genetic marker found in the human chromosome related to Down Syndrome, could be detected
in cell-free DNA samples from which fragments greater than 500 base pairs or 300 base pairs had been removed.
Both experiments were conducted using
known laboratory techniques and commercially available testing kits. E.g., id. at col. 3 ll. 49-50, col. 3 l. 65-col.
4 l. 13, col. 5 ll. 45-50; see also id. at col. 2 l. 61-col. 3 l. 18.
The claims recite nearly identical method steps.
The method steps of the ’751 patent separate DNA
fragments greater than or equal to 500 base pairs. The
method steps of the ’931 patent separate DNA fragments greater than or equal to 300 base pairs.
For example, claim 1 of the ’751 patent recites the
following method:
1. A method for preparing a deoxyribonucleic
acid (DNA) fraction from a pregnant human
female useful for analyzing a genetic locus involved in a fetal chromosomal aberration, comprising:
(a) extracting DNA from a substantially
cell-free sample of blood plasma or blood
serum of a pregnant human female to ob-

58a
tain extracellular circulatory fetal and maternal DNA fragments;
(b) producing a fraction of the DNA extracted in (a) by:
(i) size discrimination of extracellular
circulatory DNA fragments, and
(ii) selectively removing the DNA
fragments greater than approximately
500 base pairs,
wherein the DNA fraction after (b) comprises a
plurality of genetic loci of the extracellular circulatory fetal and maternal DNA; and
(c) analyzing a genetic locus in the fraction
of DNA produced in (b).
Id. at col. 7 ll. 54-67, col. 8 ll. 53-57; cf., ’931 patent col. 7
ll. 58-67, col. 8 ll. 57-63 (claim 1).
The dependent claims for each patent add detail
such as techniques for conducting each method step and
the detection of specific chromosomal aberrations. For
example, claim 7 of the ’751 patent specifies centrifugation for the size discrimination step and claim 10 specifies for the detection of a fetal chromosomal aberration
causing Down Syndrome. ’751 patent col. 9 ll. 1-2, 7-8.
II. The Claims Are Not Patent Eligible
The Majority sidesteps well-established precedent
by reasoning that the claims in this case belong in a
unique “bucket” reserved for patents that claim “a
method of preparation.”2 See Maj. Op. at 8. By placing
2

Cf., Rapid Litig. Mgmt. Ltd. v. CellzDirect, Inc., 827 F.3d
1042, 1046 (Fed. Cir. 2016) (reciting in claim 1’s preamble “[a]
method of producing a desired preparation”).

59a
this case in that bucket and not in a “diagnostic case”
bucket, the Majority summarily dismisses precedent
like Athena, Roche Molecular, Cleveland Clinic, Genetic Techs., Ariosa,3 and others. Id. Our precedent, however, does not support the Majority’s per se grouping of
claims. A “method of preparation case” is treated no
differently than any other process claim under our law.
35 U.S.C. § 101 grants patent rights to “[w]hoever
invents or discovers any new and useful process[4], machine, manufacture, or composition of matter, or any
new and useful improvement thereof.” See Ass’n for
Molecular Pathology v. Myriad Genetics, Inc., 569 U.S.
576, 589 (2013). Laws of nature, natural phenomena,
and abstract ideas, however, are not patent-eligible
subject matter. Id.
To determine whether a patent claims a patenteligible application of a natural phenomenon or impermissibly monopolizes a natural phenomenon, we apply
the two-step test set forth by the Supreme Court. Alice Corp. v. CLS Bank Int’l, 573 U.S. 208, 217-18 (2014).
In the first step, we determine whether the claims at
issue are “directed to” a patent-ineligible concept. Id.
If they are, we consider in the second step whether the
additional claim elements—both individually and “as an

3

Athena Diagnostics, Inc. v. Mayo Collaborative Servs.,
LLC, 915 F.3d 743 (Fed. Cir. 2019); Roche Molecular Sys., Inc. v.
Cepheid, 905 F.3d 1363 (Fed. Cir. 2018); Cleveland Clinic Found.
v. True Health Diagnostics LLC, 859 F.3d 1352 (Fed. Cir. 2017);
Genetic Techs. Ltd. v. Merial L.L.C., 818 F.3d 1369 (Fed. Cir.
2016); Ariosa Diagnostics, Inc. v. Sequenom, Inc., 788 F.3d 1371
(Fed. Cir. 2015).
4

The term “process,” as recited in § 101, encompasses all
“process, art or method” claims. 35 U.S.C. § 100(b).

60a
ordered combination”—”transform the nature of the
claim” into a patent-eligible application. Id.
A. The Claims are Directed to a Patent-Ineligible
Natural Phenomenon
The claims are directed to a natural phenomenon
because the patent’s claimed advance is the discovery
of that natural phenomenon. The Majority disregards
well-established precedent for conducting the Alice,
step one, “directed to” inquiry by failing to consider the
patent’s claimed advance.
The Supreme Court first articulated the “directed
to” inquiry in Alice, 573 U.S. at 217-218. To make that
determination, the Court analyzed whether the claims
“involved” patent-ineligible subject matter (there, an
abstract idea). Id. at 218-220 (citing Gottschalk v. Benson, 409 U.S. 63, 71-72 (1972), and Bilski v. Kappos, 561
U.S. 593, 599 (2010)).
In the three years following Alice, this court addressed numerous § 101 cases without articulating a
more definite “directed to” inquiry. Instead, we performed step one of the patent-eligibility inquiry by
comparing the claims at issue to the claims held eligible
or ineligible in earlier Supreme Court and Federal Circuit cases. See, e.g., In re Smith, 815 F.3d 816, 818
(Fed. Cir. 2016); buySAFE, Inc. v. Google, Inc., 765
F.3d 1350, 1353 (Fed. Cir. 2014).
Since 2016, in a string of cases reciting process
claims, we began conducting the “directed to” inquiry
by asking whether the “claimed advance” of the patent
“improves upon a technological process or [is] merely
an ineligible concept.” Athena, 915 F.3d at 750 (Lourie,
J.); Genetic Techs., 818 F.3d at 1375.

61a
To determine a process’s “claimed advance,” we review the claims and the written description. Athena,
915 F.3d at 750. If a written description highlights the
discovery of a natural phenomenon—e.g., by describing
the natural phenomenon as the only “surprising” or
“unexpected” aspect of the invention or that the invention is “based on the discovery” of a natural law—the
natural phenomenon likely constitutes the claimed advance. See Ariosa, 788 F.3d at 1376; Athena, 915 F.3d
at 751; Cleveland Clinic, 859 F.3d at 1360-61.
In Ariosa, we concluded that the claims were directed to a natural phenomenon based in part on the
patent’s disclosure that the natural phenomenon was a
“surprising and unexpected finding.” 788 F.3d at 1376
(citation and quotation omitted). In Athena, we concluded that the claimed advance was “only in the discovery of a natural law” based in part on the patent’s
disclosure that the inventors “surprisingly found” the
natural law. 915 F.3d at 751 (citation and quotation
omitted). In Cleveland Clinic, we concluded that the
claims were directed to a natural law relying, in part,
on the patent’s disclosure that “the inventions are
‘based on the discovery’” of the natural law. 859 F.3d at
1360-61 (citation omitted).
Here, the claimed advance is the inventors’ “surprising[]” discovery of a natural phenomenon—that cffDNA tends to be shorter than cell-free maternal DNA
in a mother’s bloodstream. See ’751 patent col. 1 ll. 5461. Like in Ariosa and Athena, the patent’s written description identifies the natural phenomenon as the only
“surprising finding.” Id. at col. 1 l. 54-col. 2 l. 6. And
the patent explains that the natural phenomenon
“forms the basis of the present invention,” like the patent in Cleveland Clinic. Id. at col. 2 ll. 1-6. It is undisputed that the surprising discovery is a natural phe-

62a
nomenon. See Maj. Op. at 3-4, 8. The claimed advance
is, therefore, the natural phenomenon.
This conclusion is bolstered by the fact that the
claimed method steps begin and end with a naturally
occurring substance, as in Ariosa. 788 F.3d at 1376. In
Ariosa, we found ineligible process claims directed to a
method of detecting paternally inherited cff-DNA. Id.
The claimed method steps began with a naturally occurring blood sample and ended with cff-DNA, both
naturally occurring substances. Id. The inventors did
not create or alter any of the genetic information encoded in the cff-DNA in the claimed method steps. Id.
Likewise, the claimed method here begins and ends
with a naturally occurring substance. The claimed
method begins with extracting a sample of blood plasma or serum from a pregnant mother that consists
wholly of various naturally occurring substances, including cff-DNA. ’751 patent col. 7. ll. 58-61. The
claimed method separates those naturally occurring
substances by size, leaving a “fraction” of the original
sample that is predominantly cff-DNA. Id. at col. 7 ll.
63-67, col. 8 ll. 53-55. The claimed method ends with
analyzing the components of the “fraction,” which contains cff-DNA. Id. at col. 8 ll. 56-57. The substances
present throughout the process are naturally occurring
substances, and the claimed method steps do not alter
those substances. The claimed method is therefore directed to a natural phenomenon.
The Majority fails to identify the claimed advance
The Majority’s step one analysis ignores the
claimed advance inquiry altogether. Contrary to the
Majority’s conclusion, the claims here are not directed
to “a patent-eligible method that utilizes [the natural
phenomenon].” Maj. Op. at 8-9. Although the Majority

63a
states that the claims “are directed to methods for preparing a fraction of cell-free DNA that is enriched in
fetal DNA” (id. at 9), the Majority fails to address with
specificity the patent’s claimed advance.
Instead, the Majority only seems to suggest that
the claimed advance is an improvement in “size discriminat[ion]” and “selective[] remov[al]” techniques.
See id. at 9-10. The Majority reasons that the inventors
used “specific process steps” of “size discriminating and
selectively removing DNA fragments that are above a
specified size threshold” and that these “concrete process steps … exploit [the natural phenomenon] in a
method for preparation of a mixture enriched in fetal
DNA.” Id. at 10-11. But whether the steps are concrete is not the appropriate analysis for determining
the claimed advance.
Where a written description identifies a technology
as well-known or performed using commercially available tools or kits, that technology cannot logically constitute a claimed advance. Ariosa, 788 F.3d at 751; see also Athena, 915 F.3d at 751 (identifying the claimed
“immunological assay techniques [as] known per se in
the art” and therefore not the claimed advance); Cleveland Clinic, 859 F.3d at 1361 (relying on the patent’s
disclosure of “commercially available testing kits” for
detecting the natural law).
Here, the claimed advance is not an improvement
in the underlying DNA-processing technology, as hinted by the Majority. The written description identifies
the claimed method steps as well-known or performed
using commercially available tools or kits. See ’751 patent col. 2 l. 49-col. 3 l. 18, col. 3 ll. 49-50, col. 3 l. 65-col. 4
l. 13, col. 5 ll. 45-50. For example, the table below highlights the commercially available tools and kits that are

64a
identified in the written description as used to perform
each claimed method step.
Performance of Claimed Method Steps

Claim 1(a), “extracting
DNA”

Commercially Available
Tool or Kit
QIAgen Maxi kit
(’751 patent col. 3 ll. 4950)
Invitrogen 1% agarose gel
(’751 patent col. 3 ll. 6667)

Claim 1(b)(i), “size discrimination”

New England Biolabs 100
base pair ladder
(id. at col. 4 ll. 4-5)

Claimed Method Step

Claim 1(b)(ii), “selectively
removing”

Step (c), “analyzing a genetic locus”

Lamda Hind III digest
(’751 patent col. 4 ll. 5-6)
QIAEX Gel Extraction
kit
(id. at col. 4 ll. 10-12)
Applied Biosystems (ABI)
7000 Sequence Detection
System
(’751 patent col. 4 ll. 1438)
TaqMan System and
TaqMan Minor Groove
Binder
(id. at col. 4 ll. 19-38)

65a
The selection of 300 and 500 base pairs resulted from
using commercially available DNA size-markers. See
id. at col. 4 ll. 3-9. The claimed DNA-processing technologies do not, therefore, constitute the claimed advance. See Cleveland Clinic, 859 F.3d at 1361.
The Majority relies on CellzDirect. See Maj. Op. at
1213. But CellzDirect is different from this case. In
CellzDirect, the inventors created a new and useful
cryopreservation technique comprising multiple freezethaw cycles. 827 F.3d at 1048. The claimed invention
went beyond applying a known laboratory technique to
a newly discovered natural phenomenon and, instead,
created an entirely new laboratory technique. Id. Unlike CellzDirect, the claimed method steps here are not
new nor are the claimed techniques used in a new or
unconventional way. The Majority recognizes that the
inventors “did not invent centrifugation, chromatography, electrophoresis, or nanotechnology”—the
claimed techniques described in the written description. Maj. Op. at 13.
The Majority’s remaining reasoning fails
The Majority further reasons that the claimed
method steps of size discrimination and selective removal “change the composition of the mixture, resulting in a DNA fraction that is different from the naturally-occurring fraction in the mother’s blood.” Id. at 10.
On this basis, the Majority concludes that the claimed
method in the patent “achieves more than simply observing that fetal DNA is shorter than maternal DNA,
or detecting the presence of that phenomenon.” Id.
The Majority’s reasoning is shortsighted. A process that merely changes the composition of a sample
of naturally occurring substances, without altering the
naturally occurring substances themselves, is not pa-

66a
tent eligible. See Genetic Techs., 818 F.3d at 1374 (using PCR to amplify genomic DNA in a sample before
detecting it); Ariosa, 788 F.3d at 1373 (using PCR to
amplify cff-DNA in a sample before detecting it).
Here, the claimed method steps of size discrimination and selective removal do not alter the naturally occurring substances in the sample of blood plasma or serum from a pregnant mother. Cf., Myriad, 569 U.S. at
593 (“Myriad’s claims are simply not expressed in
terms of chemical composition, nor do they rely in any
way on the chemical changes that result from the isolation of a particular section of DNA.”).
The Majority attempts to distinguish Myriad, reasoning that the claims at issue in Myriad were not
method claims. Maj. Op. at 12 (citing Myriad, 569 U.S.
at 595). But I see no principled reason why, under the
facts of this case, Myriad should or should not apply
simply because this case presents a method claim and
not a composition of matter claim. Whether the asserted claims recite a composition of matter or a “method of
preparation,” the purpose of § 101 remains the same, to
safeguard against claims that monopolize a law of nature, natural phenomenon, or abstract idea. See Alice,
573 U.S. at 216 (“We have described the concern that
drives this exclusionary principal as one of preemption.”).
Because the patent’s claimed advance is the discovery of the natural phenomenon, the claims are directed
to a natural phenomenon under the step one inquiry.
B. The Claims Fail to Recite an Inventive Concept
Step two of the Alice inquiry is a search for other
elements that transform the ineligible claims into significantly more than a patent upon the natural law or

67a
phenomenon. See Mayo Collaborative Servs. v. Prometheus Labs., Inc., 566 U.S. 66, 72-73. Mayo made clear
that transformation into a patent eligible application
requires “more than simply stat[ing] the law of nature
while adding the words ‘apply it.’” Id. at 72.
In step two, we ask: “[w]hat else is there in the
claims before us?” Id. at 78. This question is a lifeline,
one that is limited to “additional features” of the claim
that transforms the nature of the claim into a patenteligible application. Id. at 77; Ariosa, 788 F.3d at 1377.
For method claims that encompass natural phenomena, the method steps are the additional features
that must be new and useful. See Parker v. Flook, 437
U.S. 584, 591 (1978) (“The process itself, not merely the
mathematical algorithm, must be new and useful.”).
We must assess whether the additional features are
new and useful within the field generally, not in the
context of their particular application to the newly discovered phenomenon. See Roche Molecular, 905 F.3d
at 1372; see also Athena, 915 F.3d at 754.
The method steps under review fail to transform
the nature of the claims into patent-eligible applications. The three claimed method steps of (a) extracting
DNA, (b) producing a fraction of DNA by size discrimination, and (c) analyzing a genetic locus are not new,
either alone or in combination. The written description
indicates that the laboratory techniques of the claimed
method are commercially available techniques. And
the written description explains that step (b)’s producing a fraction by size discrimination “can be brought
about by a variety of methods.” ’751 patent col. 2 ll. 4951.
For step two purposes, that the size discrimination
and selective removal method steps were never before

68a
applied to the newly discovered natural phenomenon
does not render those steps new and useful. See Roche
Molecular, 905 F.3d at 1372; see also Athena, 915 F.3d
at 754. In Roche Molecular, we held that the method
claims at issue, which involved PCR amplification of
DNA, did not contain an inventive concept notwithstanding that the inventors were the first to use PCR
to detect the claimed natural phenomenon. Id. We
reasoned that the claims did not contain an inventive
concept because they did not “disclose any ‘new and
useful’ improvement to PCR protocols or DNA amplification techniques in general.” Id.; see also Athena, 915
F.3d at 754 (noting that “to supply an inventive concept
the sequence of claimed steps must do more than adapt
a conventional assay to a newly discovered natural
law”).
Like in Roche Molecular, the claimed method steps
here do not disclose any new and useful improvement
to DNA separation techniques. They do not disclose an
unconventional assay to the newly discovered natural
phenomenon. Instead, they adapt commercially available DNA separation techniques to the natural phenomenon.
The dependent claims also fail to transform the nature of the claims because they too rely on the same
commercially available, routine, and conventional techniques as claim 1, only they provide more specificity on
which techniques to use (e.g., ’751 patent, claim 7, identifies “density gradient centrifugation” for the claimed
size discrimination method).
Simply appending routine, conventional steps to a
natural phenomenon, specified at a high level of generality, is not enough to supply an inventive concept.
Thus, under step two, the claims of the patent in this

69a
appeal that are directed to patent ineligible subject
matter are not transformed and made eligible under
Alice step two.
III. Preemption
The Supreme Court has made clear that the principle of preemption is the basis for the judicial exceptions
to patentability. Alice, 573 U.S. at 216-217. As Mayo
emphasized, “there is a danger that the grant of patents that tie up the[] use [of laws of nature] will inhibit
future innovation premised upon them.” 566 U.S. at 86.
Here, the claims are drafted in a manner that tie up
future innovation premised upon the natural phenomenon because no skilled artisan would be entitled to rely
on the natural phenomenon to isolate cff-DNA. That a
skilled artisan could isolate or enrich cff-DNA using
some unclaimed technique is not dispositive for
preemption. See Athena Diagnostics, Inc. v. Mayo Collaborative Servs., 927 F.3d 1333, 1351 (Fed. Cir. 2019)
(Chen, J., concurring with denial of the petition for rehearing en banc) (“That claims 7 and 9 do not preempt
all ways of observing the law of nature isn’t decisive, as
none of the steps recited therein add anything inventive to the claims.”). Like in Athena, the only
claimed advance here is the discovery of the natural
phenomenon, and as drafted, these claims significantly
preempt use of that natural phenomenon.
I do not doubt that process claims that involve naturally occurring phenomena from beginning to end
could be directed to patent eligible subject matter, but
this is not such a case.

71a
APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No. 18-cv-02847-SI
ILLUMINA, INC., ET AL.,
Plaintiffs,
v.
ARIOSA DIAGNOSTICS, INC., ET AL.,
Defendants.
Filed March 14, 2019
Re: Dkt. No. 48
ORDER GRANTING DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT
On May 15, 2018, plaintiffs Illumina, Inc. and Sequenom, Inc. (collectively “plaintiffs”) filed this action
against Ariosa Diagnostics, Inc. (“Ariosa”), Roche Sequencing Solutions, Inc., and Roche Molecular Systems,
Inc., (collectively “Roche”), alleging infringement of
U.S. Patent Nos. 9,580,751 (“the ’751 patent”) and
9,738,931 (“the ’931 patent”). Dkt. No. 1. This case was
assigned to this Court on June 6, 2018. Dkt. No. 16.
Roche answered the complaint on July 9, 2018 and
counterclaimed against plaintiffs, seeking declaratory
judgment of noninfringement and invalidity of both asserted patents. Dkt. No. 21. Ariosa responded to the
complaint with substantially the same answer and
counterclaims on July 9, 2018. Dkt. No. 25. On August

72a
9, 2018, both defendants modified their responses and
submitted amended answers and counterclaims against
plaintiffs. Dkt. Nos. 40, 41. Plaintiffs answered the
amended counterclaims on August 23, 2018. Dkt. Nos.
46, 47.
On August 31, 2018 all defendants moved for summary judgment, seeking a finding that claims 1, 2, 4, 5,
and 9-10 of U.S. Patent No. 9,580,751 and claims 1-2 and
10-14 of U.S. Patent No. 9,738,931 are invalid and unenforceable because they are not drawn to patent-eligible
subject matter under 35 U.S.C. §101. Dkt No. 48 at
1:10-14. The parties stipulated to an enlargement of
time for plaintiffs to respond, which the Court granted.
Dkt. Nos. 51-53. Oral argument was held on December
21, 2018.
I.

THE ’751 PATENT

Illumina is the exclusive licensee of the ’751 patent
pursuant to an amended 2014 Pooled Patents Agreement between Illumina and Sequenom. Dkt. No. 1 ¶ 7.
The ’751 patent is titled “Non-Invasive Detection of
Fetal Genetic Traits,” and was issued to inventors
Sinuhe Hahn, Wolfgang Holzgreve, Bernhard Zimmermann, and Ying Lim on February 28, 2017 and assigned to Sequenom, Inc. U.S. Patent No. 9,580,751.
The ’751 patent relates to prenatal detection methods
performed on a maternal serum or plasma sample from
a pregnant female, and the claims specifically focus on
procedures to separate fetal and maternal DNA in a
maternal blood sample. See id. at 7:55-9:8. The basis
for the patent is the “surprising finding” that “fetal
DNA has a relatively small size of approximately 500
base pairs or less” and separating the smaller fragments “provides a possibility to enrich for fetal DNA

73a
sequences from the vast bulk of circulatory extracellular maternal DNA.” Id. at 1:56-2:6.
According to the patent, “the presence of circulatory extracellular DNA in the peripheral blood is a well
established phenomenon” and it has been shown that
“fetal DNA is present in the maternal circulation.” Id.
at 1:22-25. However, it can be difficult to examine the
fetal DNA because that “major proportion (generally >
90%) of the extracellular DNA in the maternal circulation is derived from the mother.” Id. at 1:35-44. Separation by size discrimination from maternal DNA
“leads to a fraction which is largely constituted by fetal
extracellular DNA” that can then be analyzed for various fetal genetic traits. Id. at 2:7-20.
The only independent claim of the ’751 patent is as
follows:
1. A method for preparing a deoxyribonucleic
acid (DNA) fraction from a pregnant human
female useful for analyzing a genetic locus involved in a fetal chromosomal aberration, comprising:
(a) extracting DNA from a substantially cellfree sample of blood plasma or blood serum of a
pregnant human female to obtain extracellular
circulatory fetal and maternal DNA fragments;
(b) producing a fraction of the DNA extracted
in (a) by:
(i) size discrimination of extracellular circulatory DNA fragments, and
(ii) selectively removing the DNA fragments
greater than approximately 500 base pairs,

74a
wherein the DNA fraction after (b) comprises a
plurality of genetic loci of the extracellular circulatory fetal and maternal DNA; and
(c) analyzing a genetic locus in the fraction of
DNA produced in (b).
Id. at 7:53-8:56.
II. THE ’931 PATENT
Illumina is the exclusive licensee of the ’931 patent
pursuant to an amended 2014 Pooled Patents Agreement between Illumina and Sequenom. Dkt. No. 1 ¶ 7.
Like the ’951 patent, the ’931 patent is entitled “NonInvasive Detection of Fetal Genetic Traits,” and was
issued to inventors Sinuhe Hahn, Wolfgang Holzgreve,
Bernhard Zimmermann, and Ying Lim on February 28,
2017 and assigned to Sequenom, Inc. U.S. Patent No.
9,738,931. The ’931 patent relates to prenatal detection
methods performed on a maternal serum or plasma
sample from a pregnant female and the claims specifically focus on procedures to separate fetal DNA from a
maternal sample through size discrimination methods.
See id. at 7:55-9:8. The basis for the patent is the “surprising finding” that “fetal DNA has a relatively small
size of approximately 300 base pairs or less” and separating the smaller fragments “provides a possibility to
enrich for fetal DNA sequences from the vast bulk of
circulatory extracellular maternal DNA.” Id. at 2:1418.
The ’931 patent has substantially the same specification as the ’751 patent discussed above.1 The only
1

There is an additional paragraph in the specification of the
’931 patent that is not in the specification of the ’751 patent. This
paragraph merely highlights that a Sequence Listing is included in

75a
significant difference is that the patent specifies and
claims an invention that separates fetal DNA that is
300 base pairs or smaller, rather than 500 base pairs in
the ’751 patent. Id. at 7:58- 8:61; ’751 patent at 7:54-9:8.
The only independent claim of the ’931 patent is as follows:
1. A method, comprising:
(a) extracting DNA comprising maternal and
fetal DNA fragments from a substantially cellfree sample of blood plasma or blood serum of a
pregnant human female;
(b) producing a fraction of the DNA extracted
in (a) by:
(i) size discrimination of extracellular circulatory fetal and maternal DNA fragments, and
(ii) selectively removing the DNA fragments
greater than approximately 300 base pairs,
wherein the DNA fraction after (b) comprises
extracellular circulatory fetal and maternal
DNA fragments of approximately 300 base
pairs and less and a plurality of genetic loci of
the extracellular circulatory fetal and maternal
DNA fragments; and
(c) analyzing DNA fragments in the fraction of
DNA produced in (b).

the specification. See id. at 1:25-30. The Sequence Listing is included in both patents.

76a
LEGAL STANDARD
I.

SUMMARY JUDGMENT

Summary judgment is proper if the pleadings, the
discovery and disclosure materials on file, and any affidavits show that there is no genuine dispute as to any
material fact and that the movant is entitled to judgment as a matter of law. See Fed. R. Civ. P. 56(a). The
moving party bears the initial burden of demonstrating
the absence of a genuine issue of material fact. Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986). The moving
party, however, has no burden to produce evidence
showing the absence of a genuine issue of material fact.
Id. at 325. Rather, the burden on the moving party
may be discharged by pointing out to the district court
that there is an absence of evidence to support the
nonmoving party’s case. Id.
Once the moving party has met its burden, the
burden shifts to the non-moving party to “designate
‘specific facts showing that there is a genuine issue for
trial.’” Id. at 324 (quoting then Fed. R. Civ. P. 56(e)).
To carry this burden, the non-moving party must “do
more than simply show that there is some metaphysical
doubt as to the material facts.” Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S. 574, 586
(1986). “The mere existence of a scintilla of evidence ...
will be insufficient; there must be evidence on which
the jury could reasonably find for the [nonmoving party].” Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 252
(1986).
In deciding a summary judgment motion, the evidence of the non-movant is to be believed, and all justifiable inferences are to be drawn in his favor. Id. at
255. “Credibility determinations, the weighing of the

77a
evidence, and the drawing of legitimate inferences from
the facts are jury functions, not those of a judge ... ruling on a motion for summary judgment ... .” Id. However, conclusory, speculative testimony in affidavits
and moving papers is insufficient to raise genuine issues of fact and defeat summary judgment. Thornhill
Publ’g Co., Inc. v. Gen. Tel. & Elec. Corp., 594 F.2d 730,
738 (9th Cir. 1979). The evidence the parties present
must be admissible. Fed. R. Civ. P. 56(c)(4).
II. SUBJECT MATTER ELIGIBILITY UNDER § 101
Under Section 101 of Title 35 of the United States
Code, the scope of patentable subject matter encompasses “any new and useful process, machine, manufacture, or composition of matter, or any new and useful
improvement thereof.” Bilski v. Kappos, 561 U.S. 593,
601 (2010) (quoting 35 U.S.C. § 101). Section 101 “contains an important implicit exception: Laws of nature,
natural phenomena, and abstract ideas are not patentable.” Alice Corp. Pty. v. CLS Bank Int’l, 134 S. Ct.
2347, 2354 (2014) (internal quotations omitted). They
are not patent-eligible because “they are the basic tools
of scientific and technological work,” which are “free to
all men and reserved exclusively to none.” Mayo Collaborative Servs. v. Prometheus Labs., Inc., 566 U.S. 66,
70 (2012) (internal quotations omitted). The United
States Supreme Court has explained that allowing patents for such purported inventions would “tend to impede innovation more than it would tend to promote it,”
thereby thwarting the primary objective of patent
laws. Id. at 71.
In Alice, the leading case on patent-eligible subject
matter under §101, the Supreme Court refined the
“framework for distinguishing patents that claim laws
of nature, natural phenomena, and abstract ideas from

78a
those that claim patent-eligible applications of those
concepts” originally set forth in Mayo. Alice, 134 S. Ct.
at 2355 (citing Mayo, 556 U.S. 66). This analysis proceeds in two steps.
The first step looks to determine whether
claims are directed to a patent-ineligible concept. If they are, the second step is to consider
whether the additional elements recited in the
claim transform the nature of the claim into a
patent-eligible application by reciting an inventive concept that is sufficient to ensure that
the patent in practice amounts to significantly
more than a patent upon the [ineligible concept] itself.
Ariosa Diagnostics, Inc. v. Sequenom, Inc., 788 F.3d
1371, 1380 (Fed. Cir. 2015) (internal quotations and citations omitted). When additional elements involve only “well-understood, routine, conventional activity previously engaged in by researchers in the field,” the additional elements are insufficient to transform a patentineligible concept into a patent-eligible application.
Mayo, 566 U.S. at 73. “Whether something is wellunderstood, routine, and conventional to a skilled artisan at the time of the patent is a factual determination.”
Berkheimer v. HP Inc., 881 F.3d 1360, 1369 (Fed. Cir.
2018). However, summary judgment is appropriate for
questions of §101 eligibility where no genuine disputes
of fact exist. “When there is no genuine issue of material fact regarding whether the claim element or
claimed combination is well-understood, routine, conventional to a skilled artisan in the relevant field, this
issue can be decided on summary judgment as a matter
of law.” Id. at 1368. “To the extent that the Court
must resolve underlying questions of fact related to eligibility, they must be proven by clear and convincing

79a
evidence.” Broadband iTV, Inc. v. Oceanic Time
Warner Cable, LLC, 135 F. Supp. 3d 1175, 1188 (D.
Haw. 2015), aff’d sub nom. Broadband iTV, Inc. v. Hawaiian Telcom, Inc., 669 F. App’x 555 (Fed. Cir. 2016).
DISCUSSION
Defendants seek summary judgment on the
grounds that both the ’931 and ’751 patents claim patent-ineligible subject matter. Defendants assert that
both patents are directed toward patent-ineligible subject matter and that there are no additional elements
that transform the patents’ claims into patent-eligible
concepts. See Dkt. No. 48. Plaintiffs contest defendants’ characterization of its patents, arguing the patents cover a laboratory technique for preparing a new
and useful composition of cell-free DNA that is enriched for fetal DNA. See Dkt. No. 56.
Whether the patents are directed towards ineligible subject matter and whether there is nonetheless an
inventive concept that transforms otherwise unpatentable subject matter are discussed in turn below.
I.

DIRECTED TOWARDS A PATENT-INELIGIBLE CONCEPT

Defendants argue that the asserted claims are directed to natural phenomena. Dkt. No. 48 at 7. Specifically, defendants argue that “[t]he claimed method begins with a sample of cell-free DNA and ends with an
analysis of it,” meaning that it is directed to patentineligible subject matter. Id. at 8:12-18. Defendants
compare this case to both Genetic Techs. Ltd v. Merial
LLC, 818 F.3d 1369 (Fed. Cir. 2016) and Ariosa v. Sequenom, Inc., 788 F.3d 1371, 1376 (Fed. Cir. 2015). In
both cases, the Federal Circuit held the claims were
directed to detecting the presence of naturally occurring things or phenomena.

80a
Plaintiffs argue the patent claims are directed to a
laboratory method for preparing new and useful DNA
fractions that do not exist in nature and are thus not a
natural phenomenon. Dkt. No. 56. Plaintiffs argue the
patents are directed to a process that yields a nonnatural composition of cell-free DNA fragments that is
enriched for fetal DNA.
The “‘directed to’ inquiry applies a stage-one filter
to claims, considered in light of the specification, based
on whether ‘their character as a whole is directed to
excluded subject matter.’” Enfish, LLC v. Microsoft
Corp., 822 F.3d 1327, 1335 (Fed. Cir. 2016) (quoting Internet Patents Corp. v. Active Network, Inc., 790 F.3d
1343, 1346 (Fed. Cir. 2015)) (citing Genetic Techs., 818
F.3d at 1375 (Fed.Cir.2016)). “The courts have recognized that it is not always easy to determine the boundary between abstraction and patent-eligible subject
matter.” Internet Patents, 790 F.3d at 1347 (Fed. Cir.
2015) (citing recent precedent highlighting patents that
attempt to preempt use of the laws of nature or abstract ideas when determining the boundary); See also
Parker v. Flook, 437 U.S. 584, 589 (1978) (“The line between a patentable ‘process’ and an unpatentable ‘principle’ is not always clear.”).
Regarding patent-ineligible concepts, the Supreme
Court has held that there is a “rule against patents on
naturally occurring things ...” Ass’n for Molecular Pathology v. Myriad Genetics, Inc., 569 U.S. 576, 589
(2013). The Supreme Court ruled that “[l]aws of nature, natural phenomena, and abstract ideas are not patentable.” Id. at 589 (citing Mayo, 132 S. Ct. at 1293)
(internal quotations omitted).
During prosecution (application no 13/757, 637) Mathias Ehrich, the Senior Vice President of Research

81a
and Development at Sequenom, Inc. filed a declaration
in support of the patent. Dkt. No. 48-3 (“Ex. 2”) ¶ 2.
He stated that “[t]he claimed methods are not directed
to a natural phenomenon—a difference in size of the
maternal and fetal DNA in maternal blood plasma do
not result in a natural phenomenon.” He claimed that
“the DNA in maternal blood plasma is not the size discriminated fraction produced by the claimed methods”
and that “[t]he fetal and maternal DNA found in nature
is structurally different and does not exhibit the discussed new utility.” Id. ¶ 20. After size discrimination,
“the ratio” of fetal DNA to maternal DNA “changes
and has a new value that does not exist in nature.” Id.
The fetal and maternal DNA in maternal blood
plasma were subject to size discrimination
based on a chosen fragment length (e.g., less
than approximately 500 base pairs) to produce
a fraction of the maternal and fetal DNA useful
for a specific purpose (e.g., detection of a fetal
genetic locus that is present in the maternal
DNA and that is related to fetal chromosomal
aneuploidy). The size distribution of the DNA
from maternal blood plasma substantially
changed after this size discrimination was performed: certain DNA fragments mostly of maternal origin were preferentially removed and
were no longer present in the sample. The difference in structure is directly related to and
demonstrated by the new utility for the altered
DNA of maternal blood plasma in the claimed
methods: detection of certain fetal genetic loci.
Id.
In sum, plaintiffs contend that changing the concentration of fetal DNA relative to maternal DNA in

82a
the sample creates a “difference in structure” which is
not naturally occurring.
The PTO originally rejected plaintiffs’ applications
stating:
Nothing is added by identifying the techniques
to be used in selecting nucleic acids based on
size because such techniques were the well understood, routine and conventional techniques
that a scientist would have thought of when instructed to enrich fetal DNA from a cell-free
sample of maternal blood plasma or serum.
Id. ¶ 21.
Plaintiffs responded that “it was thought the similarity of the fetal and maternal genomes and the complex mixture of fetal and maternal fragments, in terms
of fragment sizes and diversity of sequences exhibited
for a given fragment size, were insurmountable” in isolating fetal DNA. Id. ¶ 21. However, plaintiffs’ representations to the patent office conflate the two prongs
of the Alice test. Changing the ratio of two natural
products in a mixture and analyzing one of those products does not impact whether an invention is directed
towards a natural phenomenon.
Here, the Court finds that both the ’931 and ’751
patents are directed towards patent-ineligible concepts,
namely naturally occurring phenomena. Both patents
claim results from a test of naturally occurring fetal
DNA and do not transform the naturally occurring
product into something new. Instead the patents lay
claim to test results obtained from the use of fetal
DNA. This use alone is insufficient to overcome the
“directed to” inquiry.

83a
Plaintiffs cite to Rapid Litig. Mgmt. Ltd. v.
CellzDirect, Inc., 827 F.3d 1042 (Fed. Cir. 2016) in support of their argument. There, the Federal Circuit
found a technique for cryogenically freezing liver cells
called hepatocytes was patentable. The Federal Circuit
noted that “the claims are simply not directed to the
ability of hepatocytes to survive multiple freeze-thaw
cycles. Rather, the claims of [the patent] are directed
to a new and useful laboratory technique for preserving
hepatocytes.” Id. at 1048. The court found that the inventors “employed their natural discovery to create a
new and improved way of preserving hepatocyte cells
for later use.” Id.
In CellzDirect, the inventors created a patent to
solve a systemic issue with hepatocytes, namely that
“certain factors limit their use: fresh hepatocytes can
only be obtained from liver resections or nontransplantable livers or organ donors, and their life
space is short.” Id. at 1045. While prior cryopreservation techniques existed before the invention, “the process could damage the hepatocytes, leading to poor recovery numbers of viable cells.” Id. In addition, “prior
methods were unsuitable for preparing a multi-donor
hepatocyte pool..[and]…[r]esearchers desired to pool
hepatocytes from various source livers to create a
hepatocyte preparation approximating average cell livers. Such pools are useful research tools.” Id. The inventors discovered that some hepatocytes are capable
of surviving multiple freeze-thaw cycles. Armed with
this discovery, the inventors then developed an improved process of preserving hepatocytes. This process included subjecting previously frozen and thawed
cells to density gradient fractionation, recovering the
viable cells, and refreezing the viable cells. Id. The

84a
claims specified that the resulting preparation could be
thawed and used immediately.
In distinguishing CellzDirect from prior precedent,
the Federal Circuit noted the difference between the
claims in CellzDirect and the patent ineligible concepts
amounting to nothing more than observing or identifying the ineligible concept in Ariosa and In re BRCA1& BRCA2-Based Hereditary Cancer Test Patent Litig.,
774 F.3d 755, 761-62 (Fed. Cir. 2014). The court noted,
“although the claims in each of these cases employed
method steps, the end result of the process, the essence
of the whole, was a patent-ineligible concept.” Id.
CellzDirect, however, was the result of a new and useful artisan technique. “The inventors certainly discovered the cells’ ability to survive multiple freeze thaw
cycles, but that is not where they stopped, nor is that
what they patented.” 827 F.3d at 1048.
The Court finds the facts at hand more analogous
to Ariosa than to CellzDirect. In CellzDirect, the end
result was cryogenically frozen useful liver cells that
did not occur in nature. In Ariosa, as is the case here,
the claims are directed to a testable quantity of genetic
information found in nature. Unlike CellzDirect, the
end result is naturally occurring. Accordingly, the
Court finds plaintiffs’ arguments unpersuasive and
holds that the patents are directed to patent ineligible
concepts.
II. INVENTIVE CONCEPT
Defendants argue the asserted claims do nothing
more than list a series of conventional steps to detect
and analyze DNA fragments. Defendants argue that
nothing in the patent specifications or prosecution history identifies novelty or inventiveness beyond the

85a
natural phenomenon itself. Plaintiffs counter that, analyzing the claims as a whole, the inventors present a
novel process that exploits the discovery that in a maternal cell free DNA sample from a pregnant woman,
the fetal DNA is on average smaller than the maternal
DNA. Plaintiffs argue the composition of DNA presents new and useful utility in allowing for improved
detection of fetal genetic traits, such as aneuploidy.
Plaintiffs also argue the selection of 300 to 500 base
pairs is human ingenuity and scientific judgment. In
addition, plaintiffs argue that dependent claims include
several laboratory steps that do not occur in nature,
including PCR and ligase chain reactions for amplification, as well as the use of chromatography and electrophoresis. See Dkt. No. 56.
An inventive concept occurs when the claims are
“more than a drafting effort designed to monopolize the
[abstract idea]” and “claims may be read to ‘improve[ ]
an existing technological process.’” Bascom Glob. Internet Servs., Inc. v. AT&T Mobility LLC, 827 F.3d
1341, 1351 (Fed. Cir. 2016) (quoting Alice, 134 S. Ct. at
2356-57). Moreover, “well-understood, routine, conventional activity … is normally not sufficient to transform
an unpatentable law of nature into a patent-eligible application of such a law.” Mayo, S. Ct. at 1291 (citing
Parker, 437 U.S. at 590).
“To put the matter more succinctly, [where] the
claims inform a relevant audience about certain laws of
nature; any additional steps consist of well-understood,
routine, conventional activity already engaged in by the
scientific community; and those steps, when viewed as
a whole, add nothing significant beyond the sum of
their parts taken separately,” then there is no incentive
concept. Mayo, 566 U.S. at 79-80.

86a
Plaintiffs rely on CellzDirect in support of their argument. 827 F.3d 1042 (Fed. Cir. 2016). There, the
court explained that the end result of the patent at issue was not simply an observation or detection of the
ability of the liver cells to survive multiple freeze-thaw
cycles, but rather a new and useful method of preparing
the hepatocyte cells. In so holding, the court distinguished the case from Myriad noting that whereas “the
processes used by Myriad to isolate DNA were well
understood[,]” in CellzDirect the “claims [were] directed to a new and useful process of creating [a] pool
[of the cells], not to the pool itself.” Id. at 1049. The
court also distinguished the patent from those at issue
in Genetic Techs and Ariosa, noting “[a]lthough the
claims in each of these cases employed method steps,
the end result of the process, the essence of the whole,
was a patent-ineligible concept.” CellzDirect, 827 F.3d
at 1048.
This Court finds the facts at hand far closer to
those in Ariosa and distinguishable from CellzDirect.
The invention in CellzDirect went beyond applying a
known laboratory technique to a newly discovered natural phenomenon, and instead created an entirely new
laboratory technique that “is not simply an observation
or detection” based on the natural phenomenon. Id.
Here, as in Ariosa, the claims extend only to isolation
and analysis of a naturally occurring phenomenon and
employ routine, well-known laboratory techniques. See
Roche Molecular Sys., Inc. v. CEPHEID, 905 F.3d
1363, 1373 (Fed. Cir. 2018) (distinguishing the patent at
issue by noting that the patent in CellzDirect “went
beyond applying a known laboratory technique to a
newly discovered natural phenomenon, and instead
created an entirely new laboratory technique that is
not simply an observation or detection based on natural

87a
phenomenon[,]” while “[i]n contrast the [patent at issue] claims a method of detection based on a natural
phenomenon and employs only conventional, wellknown laboratory techniques.”).
The Court finds that the claims of each patent are
not inventive. The independent claims require three
phases: extraction, size production, and selective removal. Each of the steps is described as well-known
and conventional. See Dkt. No. 61. Plaintiffs suggest
that the novelty of their invention is in the use of routine and conventional steps to isolate and analyze
smaller DNA fragments. However, the Court finds
that the ‘inventive concept’ is the application of the
well-known routine and conventional techniques for extraction and removal. For example, the patents require
“extracting DNA,” “producing a fraction of DNA”, and
discuss “discrimination” and “removal steps.” These
broad terms are “well-understood, routine, conventional activities previously known to the industry,” particularly given that the claims provide them no more explicit definition. Broadband iTV, Inc., 135 F. Supp. 3d
at 1188.
Accordingly, the Court finds that plaintiffs’ evidence does not raise genuine issues of material fact sufficient to defeat summary judgment. The “novelty” of
an idea is not enough in itself to confer patentability,
where the novelty does not exceed the “inventive concept” limitations. See, e.g., Diamond v. Diehr, 450 U.S.
175, 188-89 (1981) (“The ‘novelty’ of any element or
steps in a process, or even of the process itself, is of no
relevance in determining whether the subject matter of
a claim falls within the § 101 categories of possibly patentable subject matter.”).

88a
In addition, the Court finds that the dependent
claim limitations do not add enough to render the patents eligible. The claimed combination of elements
lacks an inventive concept because the combination was
well-understood, routine and conventional at the time
of invention. Exergen Corp. v. Kaz USA, Inc., 725 F.
App’x 959, 974 (Fed. Cir. 2018). Accordingly, the Court
GRANTS defendants’ motion for summary judgment.
CONCLUSION
For the foregoing reasons and for good cause
shown, the Court hereby GRANTS defendants’ motion
for summary judgment. The parties are directed to file
a joint statement identifying the issues which remain to
be decided in this case and proposing a schedule for
same. Such joint statement must be filed no later
than January 9, 2019.
IT IS SO ORDERED.
Dated: December 24, 2018
signature
SUSAN ILLSTON
United States District Judge

89a
APPENDIX D
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1419
ILLUMINA, INC., SEQUENOM, INC.,
Plaintiffs-Appellants,
v.
ARIOSA DIAGNOSTICS, INC.,
ROCHE SEQUENCING SOLUTIONS, INC.,
ROCHE MOLECULAR SYSTEMS, INC.,
Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of California in
No. 3:18-cv-02847-SI, Senior Judge Susan Y. Illston.
ON PETITION FOR PANEL REHEARING
Before LOURIE, MOORE, and REYNA,
Circuit Judges.
PER CURIAM.
ORDER
Appellees Ariosa Diagnostics, Inc., Roche Molecular Systems, Inc. and Roche Sequencing Solutions, Inc.
filed a combined petition for panel rehearing and rehearing en banc.

90a
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is granted to the
extent that the previous precedential opinion and
judgment issued March 17, 2020, are withdrawn and
replaced with the modified precedential opinion and
judgment accompanying this order.
FOR THE COURT
August 3, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

91a
APPENDIX E
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1419
ILLUMINA, INC., SEQUENOM, INC.,
Plaintiffs-Appellants,
v.
ARIOSA DIAGNOSTICS, INC.,
ROCHE SEQUENCING SOLUTIONS, INC.,
ROCHE MOLECULAR SYSTEMS, INC.,
Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of California in
No. 3:18-cv-02847-SI, Senior Judge Susan Y. Illston.
ON PETITION FOR REHEARING EN BANC
Before PROST, Chief Judge,
NEWMAN, LOURIE, DYK, MOORE, O’MALLEY, REYNA,
WALLACH, TARANTO, CHEN, and HUGHES,
Circuit Judges.*

*

Circuit Judge Stoll did not participate.

92a
PER CURIAM.
ORDER
Appellees Ariosa Diagnostics, Inc., Roche Sequencing Solutions, Inc., and Roche Molecular Systems, Inc.
filed a combined petition for panel rehearing and rehearing en banc. A response to the petition was invited
by the court and filed by appellants Illumina, Inc. and
Sequenom, Inc. The petition for rehearing and response were first referred to the panel that heard the
appeal, which granted the petition in part as indicated
in the accompanying order. Thereafter, the petition
was referred to the circuit judges who are in regular
active service.
Upon consideration thereof,
IT IS ORDERED THAT:
1) The petition for rehearing en banc is denied.
2) The mandate of the court will issue on September 9, 2020.
FOR THE COURT
August 3, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

